<html>
<title> - DIGITAL AUTHORITARIANISM AND THE GLOBAL THREAT TO FREE SPEECH</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
     DIGITAL AUTHORITARIANISM AND THE GLOBAL THREAT TO FREE SPEECH

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2018

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


              Available at www.cecc.gov or www.govinfo.gov
              
              
              
                        _________ 

             U.S. GOVERNMENT PUBLISHING OFFICE
                   
30-233 PDF            WASHINGTON : 2018      
              
              
              


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MARCO RUBIO, Florida, Chairman       CHRIS SMITH, New Jersey, 
TOM COTTON, Arkansas                 Cochairman
STEVE DAINES, Montana                ROBERT PITTENGER, North Carolina
JAMES LANKFORD, Oklahoma             RANDY HULTGREN, Illinois
TODD YOUNG, Indiana                  MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         TIM WALZ, Minnesota
JEFF MERKLEY, Oregon                 TED LIEU, California
GARY PETERS, Michigan
ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                   Elyse B. Anderson, Staff Director

                 Paul B. Protic, Deputy Staff Director
                 

                                  (ii)
                                  


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Marco Rubio, a U.S. Senator from 
  Florida; Chairman, Congressional-Executive Commission on China.     1
Statement of Hon. Christopher Smith, a U.S. Representative from 
  New Jersey; Cochairman, Congressional-Executive Commission on 
  China..........................................................     4
Cook, Sarah, Senior Research Analyst for East Asia and Editor, 
  China Media Bulletin, Freedom House............................     6
Hamilton, Clive, Professor of Public Ethics, Charles Sturt 
  University (Australia) and author, ``Silent Invasion: China's 
  Influence in Australia''.......................................     8
Lantos Swett, Katrina, Ph.D., President, Lantos Foundation for 
  Human Rights & Justice.........................................    11

                                APPENDIX
                                
                          Prepared Statements

Cook, Sarah......................................................    37
Hamilton, Clive..................................................    47
Lantos Swett, Katrina............................................    51

Smith, Hon. Christopher..........................................    53

                       Submissions for the Record

Letters from Members of the Internet Freedom Coalition to the 
  State Department, the Broadcasting Board of Governors, and 
  Members of Congress, submitted by Katrina Lantos Swett.........    56
Letter from Senators Daines, Gardner, Kaine, Markey, Rubio, and 
  Warner, to Secretary of State Pompeo, submitted by Chairman 
  Rubio..........................................................    85

Witness Biographies..............................................    87

                                 (iii)


     DIGITAL AUTHORITARIANISM AND THE GLOBAL THREAT TO FREE SPEECH

                              ----------                              


                        THURSDAY, APRIL 26, 2018

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:03 
a.m., in room 301, Russell Senate Office Building, Hon. Senator 
Marco Rubio, Chairman, presiding.
    Present: Representative Smith, Cochairman, and Senator 
Steve Daines.
    Also Present: Sarah Cook, Senior Research Analyst for East 
Asia and Editor, China Media Bulletin, Freedom House; Clive 
Hamilton, Professor of Public Ethics, Charles Sturt University, 
Canberra, and author, ``Silent Invasion, China's Influence in 
Australia''; Katrina Lantos Swett, President, Lantos Foundation 
for Human Rights & Justice.

  OPENING STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM 
 FLORIDA; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Rubio. Welcome to the Congressional-Executive 
Commission on China. The title of this hearing is ``Digital 
Authoritarianism and the Global Threat to Free Speech.''
    We will have one panel testifying today. It will feature 
Sarah Cook, who is the senior research analyst for East Asia 
and editor of the China Media Bulletin, Freedom House; Clive 
Hamilton, who is a professor of public ethics at Charles Sturt 
University in Canberra, and author of ``Silent Invasion: 
China's Influence in Australia''; and Dr. Katrina Lantos Swett, 
president, Lantos Foundation for Human Rights & Justice.
    I want to thank all of you for being here.
    I understand that Professor Hamilton has a speaking 
engagement at the State Department immediately following this 
hearing, so once the testimony has concluded, commissioners 
will take a few minutes to ask him any questions they have and 
then we will return to the rest of the Q & A.
    The topic, of course, of today's hearing is freedom of 
expression and China's pervasive and unrelenting efforts to 
stifle speech at home and now increasingly abroad. And so it's 
timely and it's important.
    We have long known of the Chinese Communist Party's massive 
censorship regime and suppression of free speech and expression 
within its own borders. The Commission's political prisoner 
database testifies to the human toll of the Chinese Communist 
Party's repression in this regard. But now the party is 
increasingly exporting its authoritarianism abroad, trying to 
suppress speech, stifle free inquiry, and seeking to control 
narratives around the world.
    America and other like-minded nations must contend with 
this long arm of China and the growing threat it poses to our 
open democratic systems.
    With the conclusion of last month's 2018 National People's 
Congress, the Chinese president and Communist Party general 
secretary emerged newly empowered and emboldened, no longer 
tethered by term limits, and overseeing a noteworthy expansion 
of Communist Party control over every aspect of China. These 
institutional developments reinforce his directives to Chinese 
media outlets to exhibit absolute loyalty to the party and his 
declaration in 2016 that all media must be surnamed ``Party'' 
and convey positive news about China in conformity with the 
party's ideology.
    China's vast censorship regime is without parallel. Freedom 
House's 2017 ``Freedom on the Net'' report named China the 
world's worst abuser of internet freedom for the third 
consecutive year. And the Commission's most recent annual 
report noted ``the increased tension and criminal prosecution 
of citizen journalists who are a key source of information on 
labor protests, petitioning the government for redress of 
grievances, and other rights defense efforts.''
    These detentions hinder the ability of those of us outside 
of China to know what is happening inside the world's most 
populous nation. Foreign journalists face restrictions and 
harassment, including physical abuse, physical and online 
surveillance, denying or threatening to deny reporters' visas, 
restricting their access to certain areas of the country, and 
harassment of sources and news assistants.
    Restrictions on expression are not limited to journalists. 
A State Department travel advisory that was issued in January 
of this year warned of the following: ``Security personnel have 
detained and/or deported U.S. citizens for sending private 
electronic messages critical of the Chinese government.'' The 
latter point underscores China's surveillance efforts, which 
feature prominently in any discussion of government censorship 
or curbs on free expression.
    The Xinjiang-Uyghur Autonomous Region is an incubator of 
sorts where authorities have pursued invasive and involuntary 
collection of personal data that includes DNA and fingerprints 
from individuals. And it has all been implemented--the 
widespread use of facial recognition systems--all set against 
the backdrop of the detention of thousands of Muslims in 
political re-education centers.
    Nationwide, the Chinese government is in the process of 
implementing a social credit system which, if successful, will 
track and compile data on every Chinese citizen and possibly 
even rank them based on their behavior, including their online 
speech. In fact, there was an open-source report yesterday 
about an individual, the first one banned from traveling 
because of his ``score'' or profile.
    Made possible by the massive collection of citizens' data 
and a growing network of hundreds of thousands of surveillance 
cameras, as well as voice and facial recognition capabilities, 
experts anticipate the system will be used to punish those 
viewed insufficiently loyal to the Communist Party.
    Any discussion of censorship and surveillance invariably 
turns to technology. Foreign technology firms, many of them 
household names here in America, are clamoring, begging to have 
access to the vast Chinese market or, for those already there, 
are increasingly willing to make Faustian bargains in pursuit 
of their bottom line.
    Consider, for example, Apple. In February, it transferred 
its cloud data in China to servers inside of China that are run 
by a state-owned Chinese firm in order to comply with last 
year's cybersecurity law. And yet, we see its CEO at 
international forums basically touting the great partnership 
with China and thanking them for their openness while sometimes 
being critical of our own country. And when this sort of 
compliance to these sorts of laws leads to complicity and 
rights abuses, it cannot simply be business as usual.
    Look beyond China. It seems that not a week goes by without 
some story of China's long arm threatening free and open 
society, as Professor Hamilton can no doubt attest.
    A key element in the Chinese government's long-arm efforts 
is focused on information technology and the internet and 
internet governance or sovereignty. They assert national 
control of the internet and social media platforms, not only in 
recent domestic cyber legislation and development plans, but 
also at international gatherings.
    Additionally, there are growing examples of attempts by the 
Chinese government to guide, buy, or coerce political influence 
and control discussion of what they deem sensitive topics.
    China's Great Firewall, grave rights violations in ethnic 
minority regions, arrests of citizen journalists and rights 
lawyers, suppression of speech--these are the familiar markings 
of an authoritarian one-party state. But to the extent that the 
same authoritarian impulses animate the Chinese government and 
Party's efforts abroad, including inside the United States, it 
directly threatens our most deeply held values and our national 
interests.
    So I look forward to today's testimony. I regret that a 
previously scheduled witness, Mr. Roy Jones, an American worker 
who was fired from his job at Marriott for inadvertently 
``liking'' a tweet posted by a pro-Tibet group, is unable to 
join us.
    His story, which has now been well documented, is a painful 
and poignant reminder of the Chinese Communist Party's long 
arm, of their ability to coerce and get witting or unwitting 
cooperation from American corporations and companies who are 
interested in protecting their market status in China, even if 
it means firing an American worker the way Marriott did because 
he ``liked'' a tweet or a post about Tibet.
    There are very real costs involved if we fail to confront 
China's pernicious authoritarianism at home and increasingly, 
abroad. And if we fail to address it, Americans here at home 
and those of us who love democracy and freedom around the 
world, including many of our allies in Europe and Australia and 
the Asia-Pacific region, could find ourselves living in a world 
where we work somewhere or live somewhere where we cannot speak 
freely without losing our job or some other benefit, because 
who we work for or who controls us is not ourselves but a 
foreign government that uses the leverage of access to its 
market in order to reach here and impact one of our most 
cherished principles.
    At this time, I would like to recognize the Cochairman for 
his comments.

STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. REPRESENTATIVE FROM 
 NEW JERSEY; COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Cochairman Smith. Thank you very much, Chairman Rubio, and 
thank you for your leadership and a very powerful statement and 
for convening this extremely important and timely hearing.
    China, as we all know, has the world's largest number of 
internet users as well as the most sophisticated and aggressive 
internet censorship and control regime.
    I would remind my colleagues that back on February 15, 
2006, I convened a hearing, the beginning of a series of 
hearings. This one was called ``The Internet in China: Tool for 
Freedom or Suppression?'' Well, the jury's in--it's not a tool 
for freedom, it's a tool for suppression.
    Yes, some people are able to communicate and bypass some of 
the regulators, the people who are ubiquitous in trying to 
uncover and to, unfortunately, hurt the human rights movement 
there. But it has become, especially under Xi Jinping, a tool 
for massive suppression.
    The Chinese government spends $10 billion on maintaining 
and improving their censorship apparatus. The U.S. Government 
has an annual internet freedom budget of $55 million. And 
Congress still has little idea as to how this money is being 
spent. And I know Ms. Lantos Swett is shaking her head because 
we and she have raised this issue so many times in the past.
    Over the past year or so, Chinese companies were ordered to 
close websites that hosted discussions on the military, 
history, and international affairs, and crack down on illegal 
VPNs. Apple was forced to remove VPNs from China's app store.
    New regulations were announced restricting anonymity 
online. And the Chinese government rolled out impressive new 
censorship technologies censoring photos in one-to-one WeChat 
discussions and disrupting WhatsApp.
    Beijing has also deployed facial--as you pointed out, Mr. 
Chairman--and voice recognition, artificial intelligence and 
other surveillance technologies throughout the country but 
particularly targeting the Uyghur ethnic minority where between 
500,000 and a million Uyghurs have been detained arbitrarily.
    The Chinese government and the Communist Party's attempt to 
enforce and export a digital authoritarianism poses a direct 
threat to Chinese rights defenders and ethnic minorities and 
poses a direct challenge to the interests of the United States 
and the free international community.
    The U.S. must recognize that we are engaged in a battle of 
ideas and a revitalized dictatorship--online, in the 
marketplace, and elsewhere--and we need to up our competitive 
strategies and our game to meet this very, very serious 
challenge.
    The administration's national security strategy says quite 
clearly that the Chinese government and the Communist Party, 
along with Russia, seek to ``challenge American power, 
influence and interests, attempting to erode American security 
and prosperity. They are determined to make economies less free 
and less fair, to grow their militaries and to control 
information and data to repress their societies and expand 
their influence. The Chinese government and Communist Party are 
using economic inducements and penalties, influence operations, 
and implied military threats to persuade other states to heed 
their political and security agenda. China gathers and exploits 
data on an unrivaled scale and spreads features of its 
authoritarian system, including corruption and the use of 
surveillance.''
    The Chinese government and the Communist Party want to 
shape a world that is antithetical to U.S. values and interests 
and to export their economic, political and censorship models 
globally.
    In response, the U.S. and like-minded allies must stand 
resolutely for freedom of religion, fairer and freer trade, 
labor rights, an end to the coercive population control 
programs, freedom of navigation, the rule of law and freedom of 
expression, including online.
    A coherent and engaged internet freedom strategy must be a 
critical part of the U.S. diplomatic toolbox. This strategy 
should have at its core a commitment to protect fundamental 
freedoms, privacy, and promote the free flow of news and 
information. But it is not a matter of just having a strategy--
it should be the right one. The Bush and Obama administrations 
pursued cyber diplomacy, yet internet freedom has declined 
around the world, privacy is increasingly under threat, and the 
free flow of information has become more endangered.
    The right strategy must start with some humility. 
Cyberspace is a place to spread democratic ideals and a place 
where criminals, extremists, corporations, traffickers, and 
governments exploit vulnerabilities with impunity. Online 
communication can convey our highest ideals and our worst 
fears. It can shine a light on repression and be the source of 
hatred, manipulation, fake news, coercion, and conflict. It can 
bring people together or it can push us apart.
    Despite all of this, I agree with the NSS's conclusion 
which says, ``The internet is an American invention and it 
should reflect our values as it continues to transform the 
future for all nations and all generations. A strong, 
defensible cyber infrastructure fosters economic growth, 
protects our liberties and advances our national security.''
    Central to a revitalized U.S. internet freedom strategy 
should be a priority to open gaping holes in China's Great 
Firewall. As we remember with Radio Free Europe years ago, it 
was not soundproof. I remember those ads when I was a kid 
growing up. Well, the Great Chinese Firewall can be penetrated, 
but it has to be a very focused and aggressive and smart 
strategy.
    I am not confident that the policy of the Broadcasting 
Board of Governors or the State Department has met that test at 
all. I think there are certain goals we should prioritize in 
our internet freedom strategy, which would include, one, 
China's netizens require easy, reliable, and free access to 
uncensored information through anticensorship technologies so 
that anybody can freely access information regardless of their 
technical ability. Reliable solutions should work all the time, 
regardless of intensified crackdowns or major events like Party 
congresses or the June 4th anniversary of Tiananmen Square.
    Solutions should also present difficult choices for the 
Chinese authorities. If the authorities want to disrupt these 
solutions, then they must disrupt many online services which 
they would normally be hesitant and unlikely to block.
    Access to solutions should also come at no cost to Chinese 
netizens. The Chinese authorities often block access to payment 
providers, so even if Chinese can afford a circumvention 
solution, they cannot get past the censorship by their payment 
provider.
    Holistic anticensorship solutions should be encouraged, 
including not just technical circumvention but also 
distribution of those tools--getting around Google Play being 
blocked and censorship in the Apple app store--helping others 
share anticensorship tools as well as content through messaging 
apps, social networks, and QR codes.
    These are just a few examples. I could say to my colleagues 
that in years past, I introduced the Global Online Freedom Act. 
We're going to be reintroducing that shortly, updated and 
hopefully responsive. Unfortunately, it has been sent to 
several committees. While we have gotten it out of the Foreign 
Affairs Committee, in the past, Ways and Means and Financial 
Services on the House side have been reluctant because of the 
pressure coming from the industries that weren't for it.
    I would note parenthetically as well that Google used to be 
against it and then midstream a couple of years ago came out in 
favor of it. So there is hope that we'll get some support 
there. But above all, I think we just need to pass that or 
something like it in the very near future.
    I yield back and I thank you.
    Chairman Rubio. Thank you.
    Let us begin with the panelists.
    Ms. Cook, if you want to begin with your testimony.

STATEMENT OF SARAH COOK, SENIOR RESEARCH ANALYST FOR EAST ASIA 
        AND EDITOR, CHINA MEDIA BULLETIN, FREEDOM HOUSE

    Ms. Cook. Chairman Rubio, Cochairman Smith, thank you for 
inviting me. And it's really an honor to testify before you 
today.
    The number of internet users in China reached an estimated 
772 million people as of the end of 2017. This figure puts the 
issues we are discussing today in perspective. They affect a 
group more than double the size of the population of the United 
States.
    Alongside this increased access to internet services, 
China's ruling Communist Party has developed a robust apparatus 
of censorship, manipulation, and surveillance. Although this 
system has long been the most multilayered and sophisticated 
control apparatus in the world, recent years have seen new 
waves of tightening.
    Over the past year and particularly since a new 
cybersecurity law came into effect last June, online censorship 
and surveillance have expanded dramatically alongside 
increasing arrests of Chinese citizens, particularly for 
content shared on the mobile instant messaging platform WeChat.
    Technical and regulatory innovation and experimentation is 
constantly under way. It is thus worth considering what the 
costs are of this tightening for various actors inside and 
outside China.
    Well, for Chinese netizens, the space for ordinary Chinese 
to obtain and share information on a wide range of political 
and even apolitical topics has noticeably shrunk. The risk of 
punishment for even facetious comments deemed unacceptable to 
the authorities has risen. These shifts affect hundreds of 
millions of users in China.
    For target populations, like activists or members of 
religious and ethnic minorities, the consequences are 
especially dire. Numerous lawyers, bloggers, Tibetan monks, 
Uyghur Muslims, Christians, and Falun Gong practitioners have 
been jailed for sharing, downloading, or accessing information 
online or via their mobile phones.
    For Chinese tech companies--well, Chinese technology 
companies try to serve their customers, but they are also 
required to monitor and delete massive amounts of user-
generated content in an ever-changing and arbitrary regulatory 
environment.
    Over the past month, popular applications providing news or 
enabling the sharing of humorous content to tens of millions of 
users have been suspended or shut down for failing to 
``rectify'' their content sufficiently. These apps are now 
planning to hire thousands more internal censors.
    For foreign tech firms, as you know, many of the world's 
top technology and social media companies are restricted from 
providing services to Chinese users. Foreign companies that do 
operate in China or work with Chinese firms are forced to 
comply with censorship demands.
    LinkedIn restricts users from accessing profiles or posts 
by people outside China that contain politically sensitive 
information. Apple removed more than 600 applications from its 
mobile phone store that enabled Chinese users to access blocked 
websites.
    But foreign companies are also increasingly at risk of 
being complicit in politicized arrests or violations of user 
privacy. It's not only Apple that has transferred users' data 
to servers in China under data localization provisions in the 
cybersecurity law. Evernote is another U.S. company that has 
done so, in its case not with a company that is owned by the 
government, but with Tencent, which has been known to pass 
information to police in the past.
    Airbnb China recently alerted its hosts that it ``may 
disclose your information to Chinese government agencies 
without further notice to you.''
    And one of the biggest investors in the artificial 
intelligence firm SenseTime, which provides facial recognition 
to local police and at least one prison in China, is none other 
than U.S. chipmaker Qualcomm.
    Now for the Communist Party. Now, the Communist Party is 
leading the drive for increased internet controls to protect 
its hold on power, shield itself from criticism, and stop 
organized political opposition. But this project also comes 
with costs for the party in terms of legitimacy and even the 
effectiveness of censorship efforts.
    A new academic study found that after Instagram was blocked 
in 2014, users were more motivated to seek out tools to 
circumvent censorship and reach the platform. But along the 
way, they encountered a wide array of censored content they 
might not otherwise have seen.
    More broadly, with each announcement of new restrictions 
that negatively affect millions of users, signs of public 
backlash are evident. The constitutional changes enacted last 
month that removed term limits for President Xi Jinping are a 
case in point. The sheer scale of censorship points to a 
sizeable contingent of Chinese citizens who disagreed with the 
move, and much of the dissent emerged in the form of ridicule 
aimed directly at Xi.
    The situation provoked many Chinese citizens who might 
otherwise consider themselves apolitical to begin expressing 
their worries about China's direction and looking for ways 
around censorship.
    Despite these costs and periodic concessions to public 
outcry, it is hard to imagine any voluntary loosening of 
restrictions in the coming years. On the contrary, we are 
likely to see more tightening, more government demands for 
companies' cooperation, and more arrests of innocent users.
    The international community should be ready to respond to 
these trends. There are recommendations specifically for the 
U.S. Government included in my written testimony. But despite 
the Chinese government's ever-escalating efforts to censor and 
monitor internet use, steps by the United States and others can 
have a real impact.
    And I would like to conclude with a quotation from an 
anonymous Chinese reader of our China Media Bulletin. ``I am a 
lower-class worker in Chinese society and I don't speak 
English. An independent Chinese media like you that does in-
depth reports about the situation in China gives me a better 
understanding of China's current situation and future 
development. I think the flow of information and freedom of 
speech are very important to China's future development. Birds 
in cages long to fly. Even if we can't fly out now, hearing the 
chirping of birds outside can still give us hope and faith.''
    Thank you.
    Chairman Rubio. Thank you. Mr. Hamilton, thank you for 
being here.
    Mr. Hamilton. Thanks, Chairman Rubio, Cochairman Smith----
    Chairman Rubio. Can you press the button for the 
microphone, please? Thank you.
    Mr. Hamilton. This one?
    Chairman Rubio. There we go.

   STATEMENT OF CLIVE HAMILTON, PROFESSOR OF PUBLIC ETHICS, 
   CHARLES STURT UNIVERSITY, CANBERRA, AND AUTHOR, ``SILENT 
           INVASION: CHINA'S INFLUENCE IN AUSTRALIA''

    Mr. Hamilton. Thanks, Chairman Rubio and Cochairman Smith. 
I very much appreciate the opportunity to testify before the 
Commission.
    Australia, as perhaps you know, is at the forefront of 
Beijing's influence and interference efforts, with a view to 
breaking Australia away from the American alliance. If it can 
achieve that--so what happens in Australia is of crucial 
importance to us all.
    Last November, as the finished manuscript of my book 
``Silent Invasion'' was about to go to the typesetter, my 
publisher, Allen & Unwin, notified me that it was pulling the 
book. The CEO wrote saying that, based on advice it had 
received, the company was reacting to ``potential threats to 
the book and the company from possible action by Beijing.'' He 
went on to write, ``The most serious of these threats was the 
very high chance of a vexatious defamation action against Allen 
& Unwin and possibly against you personally as well.''
    The company's defamation lawyer had pointed out that it 
would not be possible to make further textual changes to the 
book that would protect the company from vexatious legal 
actions by Beijing's proxies in Australia, legal actions that 
would tie up the company in expensive legal action for months 
or even longer. The company had been spooked by recent 
defamation actions taken against major news organizations by 
so-called ``whales,'' a reference, I believe, to legal action 
taken by Chau Chak Wing, a Chinese-Australian billionaire 
resident in Guangdong, and Huang Xiangmo, a wealthy Chinese 
citizen residing in Sydney.
    Australia's domestic intelligence agency, ASIO, has warned 
the major political parties that they should not accept 
donations from these men because of their suspected links to 
the Chinese Communist Party.
    The defamation actions launched by these billionaires have 
had a chilling effect on reporting by news outlets in Australia 
and now on the book publishing industry. And I note that an 
editorial in The People's Daily a couple of months ago in 
effect endorsed the use of lawfare abroad, another instance of 
the Chinese Communist Party exploiting the institutions of 
democracy to undermine democracy.
    Allen & Unwin's decision to drop ``Silent Invasion'' was a 
deeply worrying affirmation of the argument of the book. No 
actual threats were made to the publisher, which, in a way, is 
more disturbing. The shadow cast by Beijing over Australia is 
now dark enough to frighten a respected publisher out of 
publishing a book critical of the Chinese Communist Party.
    The shadow has also frightened off the rest of the 
publishing industry. Even though the spiking of the book 
attracted headlines around the world, none of the major 
publishers showed any interest in publishing what would be 
``Silent Invasion.''
    I worry about the message that has now been sent to China 
scholars in Australia. The message is: If you write a book 
critical of the Chinese Communist Party, you will have trouble 
finding a publisher. Already, China scholars have told me that 
they censor themselves in order not to jeopardize their visas 
to do research in China and so protect their careers.
    Recently, we have seen major Western publishers compromise 
academic freedom by censoring their publications at the 
insistence of Beijing. They did so to maintain access to the 
Chinese market. In the ``Silent Invasion'' case, the fear was 
not about what the CCP could do in China--cut off access to 
markets--but what the CCP could do in Australia--sponsor legal 
actions.
    The spiking of ``Silent Invasion'' represents perhaps the 
starkest attack on academic freedom in Australia in recent 
times. It attracted intense media interest and strong support 
from the public. However, throughout the saga, one sector 
remained silent: the universities.
    No representative organization or prominent vice 
chancellor, that is, president of the university, made any kind 
of statement supporting me, a professor apparently being 
targeted by a powerful foreign state because of his work. Yet 
three months later, in March of this year, in a submission to a 
parliamentary inquiry into the proposed new foreign 
interference laws, Universities Australia, the peak body 
representing universities in Australia, complained about the 
threat posed by the new laws to academic freedom. These are 
laws designed explicitly to prevent foreign powers from 
suppressing free speech in my country.
    Australian universities are now so closely tied into 
monetary flows and research links with China that they have 
forgotten the founding principles of the Western university and 
none more so, I might add, than the University of Sydney.
    In my written statement I've outlined Beijing's attempts to 
intimidate me and punish those associated with ``Silent 
Invasion's launch, notably Mr. John Hu, a prominent Chinese-
Australian citizen who helped the Sydney launch of the book. 
The condemnations of me and my book are but a small part of a 
much larger strategy to emerge in recent times. Beijing is 
ramping up its rhetoric against Australia in a calibrated 
campaign of psychological warfare.
    Last week, the PLA navy challenged three Australian 
warships sailing through the South China Sea simply for being 
there, for being in open international waters. Beijing has 
scaled up its threats of economic harm unless Australia changes 
its anti-China policy. This psychological warfare is but stage 
one, with real punishments to follow, if needed.
    So, for Australia, this is what pushback feels like, at 
least in its early stages. When Australia stands up for its 
independence and democratic values and tells Beijing it will no 
longer tolerate interference in our domestic affairs, we expect 
it to react.
    For some in Australia, a mere expression of displeasure by 
the CCP is enough for them to buckle at the knees. There is no 
shortage of Beijing sympathizers and appeasers among 
Australia's elite, calling on Australian politicians, scholars, 
and commentators to tone down their rhetoric, as if the current 
strain in the relationship between the two nations were our 
fault rather than due to Beijing's campaign of subversion, 
cyber intrusion and harassment on the high seas. Former Prime 
Minister Kevin Rudd has recently joined in this blame-shifting 
with his criticisms of the Turnbull government for standing up 
to Beijing.
    The next two years in Australia are vital. At present, the 
political will exists to respond to the CCP's influence and 
interference operations, notably through the new foreign 
interference legislation now before Parliament.
    The CCP is mobilizing its proxies. And some among the 
elites are fighting back on its behalf. Business leaders are 
saying we must do nothing to upset Beijing. Elements of the 
Australian Labor Party, now in opposition, are attempting to 
have the proposed new laws blocked. And Beijing-friendly 
intellectuals and commentators are writing articles and open 
letters saying that there is no problem and that the criticisms 
of the CCP are in fact driven by racism.
    So the situation hangs in the balance. If we fail now to 
put up defenses against the CCP's subversion, then the 
opportunity will probably not arise again because the influence 
in the party will have penetrated too deeply.
    Thank you.
    Chairman Rubio. Thank you. Dr. Lantos Swett, thank you for 
being here.

STATEMENT OF KATRINA LANTOS SWETT, PRESIDENT, LANTOS FOUNDATION 
                   FOR HUMAN RIGHTS & JUSTICE

    Ms. Lantos Swett. Thank you. Good morning. I want to thank 
Senator Rubio and Congressman Smith for the invitation to 
participate in this hearing. And I want to commend you both for 
convening a hearing on such an important topic.
    I would ask that my full testimony, including relevant 
correspondence between the Internet Freedom Coalition that I am 
part of, and the State Department, BBG, and members of 
Congress, be included as part of the hearing record.
    The French have a wonderful saying, ``Plus ca change, plus 
c'est la meme chose,'' the more things change, the more they 
remain the same. I could not help but think of this phrase as I 
prepared my remarks for today's hearing.
    Over 10 years ago, my late father, Tom Lantos, then 
chairman of the House Foreign Affairs Committee, held a hearing 
that crystallized the sad truth about the devastating moral 
compromises so many major companies and countries, including, 
at times, our own, are willing to make in order to appease the 
Chinese government and gain access to its vast markets.
    And I think perhaps that, Congressman Smith, you might have 
been at that hearing with my father.
    At that time, the chief executive of Yahoo, Jerry Yang, was 
in my father's crosshairs that day over his company's 
cooperation in giving up the identity of a dissident 
journalist, Shi Tao, to the Chinese authorities. After Yahoo 
disclosed his identity to the government, Mr. Shi was sentenced 
to prison for 10 years for the crime of engaging in pro-
democracy activities.
    As these high-tech billionaires and technological whiz kids 
sat before him, my father, who came to this country as a 
penniless Holocaust survivor from Hungary, said, ``While 
technologically and financially you are giants, morally you are 
pygmies.''
    On that memorable occasion, Jerry Yang felt so ``called 
out'' by my father's words that he actually turned around and 
publicly bowed in apology to Mr. Shi's weeping mother, who was 
seated behind him. It was a dramatic moment, to be sure, but 
most of the episodes of cowardly kowtowing and quiet 
collaboration with the bullies, the censors, and the 
persecutors within the Chinese Communist Party occur without 
public comment or scrutiny.
    Furthermore, as today's hearing demonstrates, China is not 
content with censoring and controlling its own citizens. It is 
using the immense power of its financial resources to reach 
every corner of the world in an effort to intimidate 
businesses, universities, publishers, hotel chains, religious 
institutions, human rights and democracy activists, and even 
governments.
    It pains me to have to say this, but right now, China is 
succeeding in this effort to a shocking degree. Even more 
shocking, later in my remarks I will expose why I feel our 
government is doing far too little in the way of internet 
freedom to truly help the people of China and those imprisoned 
in other repressive regimes around the world.
    One of my fellow witnesses this morning, Mr. Hamilton, has 
had personal experience with the long arm of the Chinese 
government and their intimidation, and his testimony is a 
cautionary and chilling tale.
    Just as my father did back in 2007, we must use the power 
of public naming and shaming to try and restrain the worst 
impulses of businesses, other organizations, individuals, and 
even our own government agencies who seem all too willing to 
sell their precious birthright of free speech and democracy for 
a mess of Chinese pottage.
    To be clear, I think we all recognize that the internet is 
not an unalloyed good when it comes to spreading ideas and 
expanding the borders of freedom and democracy. As Shakespeare 
memorably penned, ``The web of our life is of a mingled yarn, 
good and ill together.''
    It is analogous to our intricate system of modern 
transportation. While we recognize that it contributes to 
pollution, congestion, disrupts the environment and, of course, 
makes possible terrible accidents involving injuries and 
fatalities, nonetheless, it is the indispensable circulatory 
system that makes possible our modern world of travel and 
commerce.
    Similarly, the internet, despite its ability to spread 
hate, disrupt elections, and propagate fake news, is 
indispensable to our modern system of global communication. And 
as such, it is central to freedom of expression everywhere in 
the world.
    That is why there was so much enthusiasm and energy eight 
years ago when then Secretary of State Hillary Clinton 
delivered a landmark speech on internet freedom. I was sitting 
in the audience that day and felt the surge of optimism as our 
nation's top diplomat laid out a robust vision of America's 
central role in tearing down what Secretary Clinton referred to 
as ``the Berlin Wall of our digital age.''
    Remember, I am the daughter of the only member of Congress 
who personally experienced the horrors of living under fascism 
of the right, the Nazis, and the totalitarianism of the left, 
the Communists. It is in my DNA to resist these authoritarian 
efforts to control free, uncensored access to knowledge. And 
I'm pretty sure, Senator Rubio and Congressman Smith, that it 
is in your DNA, too.
    The year after that speech, the Lantos Foundation played a 
leading role in redirecting a good part of our government's 
spending on internet freedom to the BBG. Prior to that, almost 
all funding was inside the State Department, and frankly, it 
led to situations where China was able to deftly use the U.S.'s 
efforts to open the internet and circumvent their ``Great 
Firewall'' as a diplomatic bargaining tool.
    Clearly, as a human rights organization, we believe that 
access to the internet is a modern human right that should not 
be bargained away, so we sought a ``safer'' home for the 
funding and felt the BBG had enough independence to play a 
leading role in opening the internet across the globe.
    In the early years of this adjustment in the way our 
government funded anti-censorship tools, internet freedom 
initiatives were not perfect, but our government was funding a 
number of technologies to provide open access and we were 
moving in the right direction.
    Today, it pains me to sit before you and express my deep 
disappointment and frustration with the actual results and the 
current commitment of our country's internet freedom policy. I 
have heard it said that if China herself had been in charge of 
America's internet freedom policy, it could hardly have been 
more favorable to China's interests. That is an extraordinarily 
harsh assessment, perhaps harsher than I myself would subscribe 
to, but let me tell you why I think it is not far off the mark.
    Perhaps the single most stunning example of the lengths to 
which China will go to create an information prison is the 
``Great Firewall,'' a massive government censorship apparatus 
that has been estimated to cost billions of dollars annually 
and to employ some 2 million people to police the internet use 
of its citizens. For this reason, many of us have long believed 
that firewall circumvention technologies must be a key 
component of any effective internet freedom strategy.
    Since 2011, the Lantos Foundation, as part of a broad 
internet freedom coalition, has urged Congress to direct the 
State Department through DRL and the BBG to provide robust 
funding to field-tested, scalable circumvention technologies. 
Recognizing that these technologies have the potential to 
provide safe and uncensored access to the internet for 
literally hundreds of millions of people in China and in other 
closed societies, Congress has responded.
    In every recent appropriations bill, Congress has included 
language directing that not less than $50 million be spent to 
fund internet freedom programs, including, specifically, 
firewall circumvention technology. This simply has not 
happened. Call it willful ignorance, call it bureaucratic 
intransigence and obfuscation, call it what you will, but, in 
my view, both the State Department and the BBG have failed to 
faithfully implement the clearly expressed intent of Congress, 
that significant resources be dedicated to these large-scale 
firewall circumvention technologies, the ones China fears most.
    They have funded freedom festivals and training and small-
scale technologies that are more directed to driving traffic to 
their own platforms, in the case of the BBG, than giving free, 
unfettered access to the vast world of the internet for the 
hundreds of millions of people trapped behind the digital 
curtain. They fund privacy and security apps that are very 
important for safety while on the net, but they forget that 
many cannot even access the internet.
    Meanwhile, some of the most effective, proven technologies, 
the ones China fears the most, technologies that provide 
unfettered access to all, have received only modest funding and 
have had curious barriers placed in their paths, making it 
difficult, if not impossible to qualify for different grant 
proposals.
    The cost to U.S. interests of these failures at the BBG and 
DRL were on vivid display during January of this year when 
protests broke out in Iran. Hundreds of thousands of Iranians 
took to the streets to protest economic hardship and the 
oppressive rule of the theocratic dictators. Among other 
repressive responses to this popular uprising, the Iranian 
government acted to block access to the internet. Sadly, 
because the BBG had earlier cut off all funding to some of the 
most effective circumvention technologies, our ability to help 
provide access to the outside world for those brave Iranians 
was greatly limited.
    Only a single U.S. government-funded large-scale 
circumvention technology was available at this moment of 
crisis. I consider this an inexcusable dereliction of duty. 
Certainly, the single for-profit vendor who was funded at the 
time did valuable work, but how many more people could have 
been helped had the BBG done the job Congress directed them to 
do?
    I confess I am baffled by the failure of both the State 
Department and the BBG to faithfully execute the directives 
that Congress has given them. When I have met with 
representatives at both agencies, they reassure me of their 
deep commitment to the goal of broadening access to internet 
freedom and of the intensity of their efforts to do so. The 
rhetoric is pleasant enough, but their words are not matched by 
their deeds.
    When our coalition has attempted to drill down and get real 
facts about where they are directing their resources and why 
they are not funding proven technologies, we are most often met 
with obfuscation, opacity, and unfulfilled promises.
    During the midst of the Iranian protests, I met with the 
top leadership at the BBG and they personally pledged to me at 
that time that within three to four weeks at most, funding 
would be granted for technologies that could make access 
available to vastly increased numbers of users around the 
world. More than three months have passed since those meetings, 
and not only has no funding been approved, but the latest 
indications are that no funding will be approved. In fact, they 
just now issued a letter saying they will be issuing no funding 
at this time.
    I have reluctantly come to the conclusion that the 
bureaucrats at DRL and the BBG are relying on what they think 
is Congress's inadequate attention span and limited expertise 
to get away with this pattern of ignoring your clearly 
expressed intent. What arrogance!
    I am hoping and praying that you will prove them wrong.
    This issue, internet firewall circumvention, desperately 
needs champions in Congress. We need leaders who will be 
vigilant and vigorous in demanding accountability from the 
agencies responsible for executing our government's internet 
freedom policies, leaders who will not be beguiled by soothing 
words and, rather than accept heartfelt protestations of good 
intentions, will demand results.
    Above all, we need leaders who know that we must not pacify 
the oppressors but instead fortify and strengthen the brave 
dissidents and ordinary Chinese citizens who are risking 
everything in their pursuit of freedom.
    In other words, we need leaders who are not moral pygmies, 
but rather moral giants. I know that both of you are that kind 
of leader. And the Lantos Foundation, along with our internet 
freedom coalition partners, stands ready to assist you in any 
way possible.
    Thank you.
    Chairman Rubio. Thank you all for being here. As promised, 
we are going to start with Professor Hamilton.
    Let me just set the stage briefly because people watch this 
issue and I think it's important to understand this context so 
they understand why it is that we are focusing on this issue.
    You know, 25, 30 years ago as China began to emerge as a 
participant in the global economy, the widespread conventional 
wisdom was that the more prosperous they became, the more they 
would behave like a democracy and be open to some of the ideas 
and notions of the West and certainly of freedom of expression 
and the like.
    But they knew that history, too. They knew, they understood 
that as nations became more prosperous, their people demanded 
more political liberties, and so they have figured out a way to 
craft a system, given the sheer volume and size of their 
economy, to basically have a Communist Party at the center of 
their daily lives, a central, powerful government that--by the 
way, they link back to its thousands of years of history as 
part of their values and their success--but allowing free 
market activity, though not identical to ours.
    In essence, if you are a prosperous Chinese corporation, 
you may be independently owned, but when the government comes 
calling, you're going to do what they tell you, even if you 
don't want to do it, or you will be charged with corruption or 
you won't be in business for long.
    In that context, they view the world, they view these 
things like notions of freedom of expression and speech not 
just as a threat. Their number-one priority, above everything 
else, is to maintain the Communist Party in charge. They view 
all these principles in the West and all these things that 
we're talking about as threats to that.
    But broader than that, they don't view it as their rules. 
They didn't write these rules, so why should they follow them? 
And they're trying to redraw all the global order along the 
principles that they argue for. And you start to see that 
exercise itself. They are beginning now to link their economic 
influence and power to their political gains and goals.
    And we hear your story, Professor Hamilton, and we start 
thinking, boy, that's far-fetched, it sounds like a movie. We 
really aren't that far from that happening here in the United 
States if you start to think about it. Perhaps it's already 
happened, just not--and we certainly know that an individual 
working for the Marriott hotel was fired because he ``liked'' a 
tweet, which he says he did by mistake, by the way; but he was 
fired for that. We wish he could have testified here today.
    That said, a couple things I would point to. And the first 
is, just to be abundantly clear, you had an opportunity to 
publish a book and ran into impediments because publishers came 
to you and basically said I know we have a contract, but we're 
not going to go forward because, number one, they are going to 
get really rich billionaires acting as agents of the Chinese 
government to sue us and tie us up in courts here in Australia. 
And number two, we're worried about what it might imply to our 
access as a company, beyond your book, to that 1 billion-plus 
population market that they have.
    And you have seen that play out now in academia as well 
where you have university presses and even others here in the 
United States where you have speeches canceled because 
universities have a program over there and they feel that they 
are going to pull the plug on that and/or on the lucrative 
business of attracting Chinese students to travel and study 
here at exorbitant tuition rates. All those things are 
threatened, they feel those things are threatened, if they 
publish a book or they invite a speaker on campus.
    That is clearly what you have experienced and what we've 
seen replicated here. Is that an accurate description?
    Mr. Hamilton. Yes, indeed, Senator, it is. I would point 
out that, as I said in my testimony, the disturbing thing about 
the spiking of ``Silent Invasion'' was not that Allen & Unwin 
felt that its market in China would be threatened, because it 
doesn't have a market in China, but that the CCP would 
interfere in Australian domestic politics through the use of 
the legal system to stop Australians hearing from another 
Australian about a concern, a threat to our democratic values. 
That was the most disturbing aspect of it.
    And as I have tried to stress in my statement to the 
Commission, universities are exceptionally important because 
intellectuals, academic scholars, they set the tone, they are 
the experts on whom we rely for information about China and the 
meaning of what's happening.
    And now that in Australian universities, as in universities 
around the world, but particularly in Australian universities--
because the number of Chinese students at Australian 
universities is proportionately five times higher than in the 
United States, and so the financial dependency is very heavy 
indeed. And money can buy silence. Money can buy compliance.
    And one thing that has disturbed me tremendously in the 
writing of this book and even more so since publication is the 
way in which the defenders of fundamental democratic rights, 
particularly the right to free speech, can be bought off. I 
mean, of course, they don't see it that way. They have all 
sorts of excuses and arguments about, We have to balance the 
various interests of the university.
    As I've said to those who have argued this to me, who've 
tried to persuade me not to criticize their university too 
heavily in my book, I said, well, no, it is not a question of 
trading off academic freedom against income from China. You 
know, academic freedom trumps other factors. You are not a 
commercial enterprise, and even if you were we would expect you 
to have an attachment to basic democratic values.
    And yet the commercialization of universities in Australia 
has been so strong and they have become so heavily dependent, 
not only on money from Chinese students but from a whole 
network of research and other relationships with Chinese 
universities, that the senior executives of those institutions 
are always worrying about what might happen on their campuses 
that could jeopardize that relationship. And I think this is 
deeply concerning for the future of the Western university if 
we are going to maintain that unique institution.
    Chairman Rubio. Well, again, I am certainly not an expert 
on the Australian laws, but I do know we come from a common-law 
tradition, so there is probably something similar to what I am 
about to cite.
    And your case, as you outline it, is something that I hope 
we will examine in Federal law here in the United States 
because I think it falls within the context of something called 
intentional interference with a business agreement or 
intentional interference with a contractual relation. The 
elements of it--I have pulled them up here just to make sure--
here are the elements, and I think you fulfill every single one 
of them.
    <bullet> The existence of a contractual relationship or a 
beneficial business relationship between two parties--that 
could be a job with a company or, in your case, a contract with 
a publisher.
    <bullet> Knowledge of that relationship by a third party--
obviously, the Chinese government and/or its agents where it 
had knowledge.
    <bullet> Intent of the third party--in this case, the 
Chinese government and others--to induce a party to the 
relationship to breach the relationship.
    <bullet> The lack of any privilege on the part of the third 
party to induce such a breach. In essence, there is no 
privilege for them to be able to do that. It's not like they 
are violating a contract with them, they are simply doing it 
because they want to silence your voice.
    <bullet> The contractual relationship is breached and 
damage to the party against whom the breach occurs.
    I mean, it seems to me as if--I don't know if there is a 
similar statute under Australian law--but it seems to me that 
the case you've described fits these criteria. And it would be 
interesting to examine--I confess I haven't done so before this 
hearing today--how such a scenario, if it played out in the 
United States, whether it's an employee that worked somewhere 
and is fired because of that interference or whether it's a 
book deal or a speech for compensation or the like--if in fact 
there is evidence and someone can go to court and prove that 
actions on behalf of a government and/or its agents caused a 
breach in that sort of contract, whether there shouldn't be a 
cause of action and damages. And if you cannot collect against 
the Chinese government, then collect against the party that you 
had the contract with and who violated it out of fear.
    And again, I think some of the things that get people's 
attention is when suddenly there is a civil cause of action for 
this. And this is going to require a lot more work and I have 
got to think about it, but we cannot allow this to continue as 
far as our laws here are concerned.
    And I for one intend to look at and see whether or not 
there are changes to be made in Federal law so that if what 
happened to you happens to someone here, whether it's a book 
deal or employment at Marriott, and then is fired by 
interference, that person now has a cause of action to pursue 
against the employer or the book contractor if they can't 
collect against the Chinese government, and maybe both.
    Mr. Hamilton. Well, it could be a very powerful counter-use 
of the legal system to resist this kind of intimidation.
    There have been cases in Australia where Australians of 
Taiwanese heritage have been fired from their jobs because when 
their bosses asked them if they supported Taiwanese 
independence they said yes--and they were fired. And this is 
clearly contrary to employment law in Australia. You can't fire 
someone for their political opinions. And yet, the situation is 
such that no one has taken it upon themselves to defend these 
people. So it's clearly contrary to employment law.
    The difficulty in the case of my book is that one would 
need to be able to demonstrate in a court of law that a 
litigant against Allen & Unwin who might be mentioned in the 
book was acting on behalf of a foreign power for political 
reasons rather than out of a genuine concern for the damage to 
their reputation.
    I suspect that if the new foreign interference law is 
passed in Parliament--and it should be, although, I mean, it is 
likely to be, albeit with some amendments--then we will find 
that the intelligence agencies in collaboration with the 
Australian Federal Police, the enforcement body that would be 
responsible for enforcing the laws, would be able to--sorry, 
the intelligence agency ASIO would be able to provide its 
secret intelligence information establishing those links 
between a litigant and the Chinese Communist Party, which would 
be a basis under the new foreign interference laws for a 
prosecution. And those acts of foreign interference, which are 
there defined, carry very heavy penalties indeed.
    And so many of us are looking forward, not only to the 
passage of the legislation, but the first prosecutions under 
the new laws because we feel as though that will be a watershed 
in which the intelligence agencies and the law enforcement 
agencies come together to make an example of Beijing's proxies 
attempting to undermine the democratic rights of Australians, 
including the right to free speech by publishing a book like 
this.
    Chairman Rubio. Well, my final point before I turn it over 
to the Cochair--and I thank you for being here. I really want 
what you've said here today to be heard by the State 
Department.
    Two final points. One, it's amazing what people admit to 
and/or what you can find under subpoena or what they admit to 
when they're under oath and facing perjury. And so, again, 
that's why I think the legal system is created--for protecting 
people.
    The other is something you mentioned, how one of the 
reactions now has been to cite this as xenophobic measures and 
the like.
    It's interesting. I didn't get there, but I just did an 
interview a few minutes ago with a major news outlet talking 
about Confucius Institutes. And one of the questions in there 
was, isn't this just scaremongering? As if to imply this is 
anticommunist scaremongering, and perhaps you can see how that 
could be extended. It is one of the arguments that some of the 
schools that continue to fight us on Confucius Institutes are 
making.
    It's an absurd one since this Commission every year 
publishes long lists of Chinese citizens who are detained, 
since much of the information that we get about what's 
happening are abuses against Chinese citizens.
    And then as far as scaremongering is concerned, I think if 
there has been a positive development on this front, it is that 
just in the last six to eight months there is a growing 
awareness across the whole of government about the scale and 
the scope of what we are up against here.
    And it has not yet--and we are going to get to Dr. Lantos 
Swett in a moment--but it has not yet potentially translated 
all the way there, but we are on our way there. And we are 
going to make it a part--and we are going to talk about that in 
a moment.
    But thank you for being here.
    I want to go to the Cochair.
    Cochairman Smith. Thank you, Mr. Chairman, very much.
    I will just first direct my questions and then later on go 
to our other two distinguished witnesses.
    Let me just say, Professor Hamilton, thank you for your 
very clear testimony and your leadership. I mean, it is so 
absolutely needed. You are rare and it's so great to have your 
voice here at this Commission today.
    You know, the shameful complicity and the cowardice of many 
in our academic community, some of the biggest and most 
prestigious universities, not just in this country, but around 
the world, is not new.
    I would remind my colleagues that back in 1979, a guy by 
the name of Steven Mosher, who was with Stanford, spent a full 
year, went to Guangdong, published a book called ``Broken 
Earth''--and I have read it because I was elected along with 
Frank Wolf, who is here today--in 1980, the same year Ronald 
Reagan got elected. And it had a profound impact in exposing 
the barbarity of the one-child-per-couple policy, forced 
abortion.
    And for anyone who does not think that the consequences 
have been lifelong, the Washington Post just did a piece a few 
days ago called ``Too Many Men'' and pointed out that there are 
the missing girls, that we have raised in this Commission over 
and over again. Last year, we documented some 62 million 
missing females exterminated through sex-selection abortion in 
part because of the child/boy preference coupled with a child 
limitation imposed by the government.
    But Mosher broke that story and Stanford, to its 
everlasting shame, threw him out of the university. The Wall 
Street Journal did a piece called ``Stanford Morality''--
immorality is what it really was--and they defended Steven 
Mosher and said, how could they?
    Now, the Chinese government threatened Stanford and said 
if, in the future, people want to come here and do their work, 
they might find it a lot harder to have access. But where is, 
as you said, Professor, the academic freedom, the idea of 
robust inquiry so that you leave no stone unturned in telling 
the unfettered truth?
    Stanford brought shame to itself and we're seeing the 
consequences of what they and so many others, including some in 
the human rights community, have done over the years in 
disregarding that issue, but also being willing, as the good 
chairman said, you know, the Confucius Centers. We have a GAO 
report that will be coming out soon. We have had a number of 
hearings on it, both in the Commission and in my Subcommittee 
on Human Rights. NYU and others who all have a presence in 
China get huge amounts of money from the government. If you 
think that doesn't stifle free speech and academic inquiry, 
I'll sell you the Brooklyn Bridge.
    And I know you would think that.
    So maybe you can--my belief is that this is still getting 
worse. You know, that goes back to 1979 with Stanford. 1980, 
1981, 1982, we have seen this grow. And now it's even worse. 
All over Europe, Confucius Centers are all over Africa. I just 
had a hearing on that, myself and my Africa, Global Health, and 
Global Human Rights Committee. It's happening everywhere. They 
want to transform the world. And what they want as their vision 
is a totalitarian dictatorship where the people serve the 
government and not the other way around and they do so with 
huge amounts of repression.
    So if you could respond to that, how it's getting worse. It 
has not gotten better, it's only gotten worse.
    Mr. Hamilton. Well, thank you, Congressman. It is indeed 
getting worse and it's getting worse because of the growing 
confidence of the People's Republic of China and the Chinese 
Communist Party rulers there and President Xi Jinping's 
determination to see the fulfillment of his China dream, the 
great rejuvenation of the Chinese people, which has a benign 
interpretation, but I think those of us who understand the more 
hawkish attitudes of the dominant factions within the Chinese 
Communist Party see that as effectively a blueprint for global 
domination.
    I think now we can say with reasonable confidence that in 
their quiet moments the CCP leaders envisage that the PRC in 20 
or 30 years' time will be the dominant global power. And when 
that happens, we should all be afraid because they have no 
respect for basic democratic rights that we cherish so much.
    But as you have indicated, Congressman, and which I 
strongly endorse and have detailed in ``Silent Invasion,'' they 
can only get away with it if they have collaborators in Western 
countries like the United States and Australia, if they can buy 
off substantial segments of the elite who are willing to forgo 
essential democratic rights, such as free speech, in pursuit of 
other objectives.
    And as I indicated, one of the things that has disturbed me 
most in the process of writing this book, and then watching 
subsequently after it has come out, is the truly tenuous 
commitment of some of my nation's leaders to the concept of 
free speech. It seems to be a tradeable commodity for those 
people.
    And it's only when some of us are willing to take a risk. 
And, you know, in the case of, I think, all of us, it is often 
a personal risk to our own security and our own employment to 
say, no, we believe that free speech and other democratic 
rights come before all else.
    And it has been--it was Senator Rubio who alluded to this--
very disturbing to see the way in which some Australian 
opinionmakers, including some of my own academic colleagues, 
have turned on me and people like me as being motivated by 
xenophobia. I actually have a very good record on antiracism 
over the decades in Australia. I come from the political left, 
which makes it more difficult for them.
    But I tell you what--this book was launched in Sydney by 
Chinese Australians, a group of Chinese Australians, the 
Australian Values Alliance, who came to my country to escape 
the clutches of Beijing. They went to Australia to enjoy the 
privileges and freedom of a democratic nation.
    But they live in fear because they know that the Chinese 
Communist Party has its agents all across Australian society 
who will punish them, which happened to Mr. John Hu, whom I 
mentioned, the Chinese Australian who helped launch this book, 
who, a week after he helped organize that launch event, arrived 
in Shanghai with his 80-year-old mother in order to scatter his 
father's ashes because he grew up in Shanghai. He was detained 
at the airport and put on the next plane back to Australia. And 
when he asked why, they said, You know why you are being 
detained; you're getting off lightly. If we allowed you into 
the country and then detained you, then you would really be in 
trouble.
    This doesn't send a new message to Chinese Australians. 
This is a message they all understand. If they step out of 
line, if they criticize the Chinese Communist Party or act in a 
way which the party perceives as against its interests, they 
will be punished. And that is a tragedy.
    Cochairman Smith. I do know you have to go. But I'll just 
conclude with this comment. You know, the concern that we have 
is not just with universities, as you would expect, 
organizations. I mean, Chairman Rubio and I and this Commission 
fought very hard with the ABA when Teng Biao, his manuscript, 
which originally was going to be published by the American Bar 
Association, they reneged on that.
    We raised it repeatedly. We asked them to come and testify, 
to hold them to account. They did, however, allow Gao 
Zhisheng's manuscript to be published, so that's a good thing. 
But why does it take pressure with a group like the ABA that 
should be walking point and not backpedaling because of 
pressure?
    The other point is that the business community in this 
country has always been easy pickings. I'll never forget--and 
this has bipartisan complicity written all over it. Under Bush 
Sr., we had the problem where they thought that MFN was okay 
for the People's Republic of China. We had Tiananmen Square, of 
course.
    And then Bill Clinton talked tough and said, Let's do an 
executive order, lays out markers. And then one year later--Mr. 
Wolf, who's here with us today, and I worked very hard on 
this--one year later, he completely reneged, he ripped up his 
executive order and gave MFN in May of 1994 with no human 
rights conditionality. And the Chinese looked at us and said, 
They care more about profits than they do about human rights. 
And that was a game-changer in the negative for the world, but 
especially for the Chinese people.
    We have been trying ever since--ever since--to do our best 
to reclaim all of that lost ground, which subsequent 
presidents--Obama, Bush W.--did not, in my opinion, in any way 
faithfully promote the human rights of the people of China. 
This Commission will continue to try.
    I'm looking forward to reading your book. I haven't read it 
yet. But I thank you so much for your contribution and for your 
leadership.
    Mr. Hamilton. Thank you.
    Chairman Rubio. Thank you. Thank you for being here. We 
appreciate it very much.
    Dr. Lantos Swett, I will start with you on this one. And I 
think your testimony is very compelling.
    I, too, am concerned about the lack of more progress on 
breaking down internet firewalls. And I did want to share with 
you--we received late last night a letter from the CEO and 
director of the Broadcasting Board of Governors, Mr. Lansing, 
and here's what he cites--and I wanted to give you a chance to 
respond. Because I don't know if you have even seen the letter.
    Ms. Lantos Swett. I have not.
    Chairman Rubio. It says, ``In fiscal year 2017, Congress 
appropriated $50.5 million to promote internet freedom 
globally.''
    And then ``BBG receives approximately a quarter of these 
funds, $15 million. The law makes clear that BBG funds should 
be available for tools and techniques to securely develop and 
distribute BBG digital content, facilitate audience access to 
such content on websites that are censored and coordinate the 
distribution of BBG digital content to targeted regional 
audiences and to promote and distribute such tools and 
techniques, including digital security techniques. To meet our 
statutory mandate, our annual appropriations act requires that 
BBG's primary goal in funding these technologies is to secure 
safe and secure access to BBG content.''
    And it goes on to say ``a significant secondary benefit is 
that once users reach a BBG platform, they then have means to 
access the internet writ large.''
    So I just wanted to give you a chance to respond to that. 
The fundamental argument he is making is they only get $15 
million and it is primarily supposed to be to open up access to 
BBG content, not to the internet at large.
    Ms. Lantos Swett. Well, it's my understanding that that 
provision was added into only the most recent appropriations 
bill. That is new language that was inserted, it is my 
understanding, through the intense lobbying efforts of BBG. And 
while I have no objection to the BBG wanting to promote access 
to their content, I think that it is a very flimsy excuse for 
not funding technologies that enable vast numbers of people to 
access the internet freely.
    I know of a number of other, sort of circumvention tool 
providers who would be quite happy to structure their 
technologies so that the first place they land is a BBG landing 
page. And then from there, they are able to go into the wide 
internet.
    But I think--and this is the bottom line--they are spending 
not $15 million on firewall circumvention technologies, they 
are spending a small fraction of that, it is my understanding, 
and this is where I hope that your Commission and that you as 
individual leaders in Congress can drill down and compel them 
to give you the answers. Because our internet freedom coalition 
gets, you know, frankly, blocked and diverted and stymied and 
sort of pushed off when we try to drill down and get the actual 
answers.
    But it is my understanding that of that $15 million, less 
than $3 million is actually being given in grants to vendors 
who are doing the work that Congress wants to see done. They 
are expending it in a variety of ways, as I indicated in my 
testimony, for small-scale research and development, small-
scale tools, VPNs, which are important, but do not have the 
ability to resist the large-scale attacks launched by China or 
other repressive regimes.
    And at the end of the day, the numbers simply aren't there. 
And it is more than a little disingenuous for BBG to come back 
and say, Well, we are required by law only to promote our 
content, when that is a new provision in the law inserted there 
by the BBG. You know, it's sort of a different version of the 
person who throws themselves on the mercy of the court as an 
orphan when they are being charged with the murder of their 
parents.
    BBG sought that provision in the latest appropriations 
bill. It has not been there previously.
    I don't have a huge objection to the notion of wanting to 
encourage people to access BBG content, but I am a little 
troubled by the idea that we use internet freedom dollars that 
Congress has appropriated to force them to read only the 
material produced by the BBG. It somehow doesn't sit right with 
this notion of free access. And I think, you know, I don't want 
to pick a fight with the BBG. I love much of what the BBG does.
    As I mentioned, my father, you know, grew up first 
suffering under the depredations of the Nazis during the 
Holocaust, and then experienced what it was to live under 
communism. Radio Free Europe, Radio Free Asia, Voice of 
America, Radio Marti, these are valuable services. I want the 
BBG to continue doing that.
    But it is also a reality that increasingly people are 
seeking out information digitally on the internet. They are not 
restricted and nor should they be restricted to, sort of, the 
information that we are providing through those mechanisms.
    So I would say--and again, you know, some of my language I 
know is tough, but I feel so passionate about this because 
we've been so frustrated and so stymied for so long and there 
is no good explanation as to why that should be the case. So be 
very careful when they show you numbers or when they come back 
with a seemingly very reasonable response. Compel them to 
provide the actual facts behind the matter.
    And I would really encourage you and your staffs--talk to 
the developers of these circumvention technologies. Find out 
from them, What is the problem? What are you being told? Why 
are you being cut off from funding?
    Right now, BBG is funding one technology, to the best of my 
knowledge. It happens to be a commercial technology, not one 
developed by dissidents, not one being offered free of charge, 
but a commercial technology.
    There should be--you know, let a thousand flowers bloom, 
was that Mao's phrase? If we were doing what we should be 
doing, if we were offering on an annual basis not $15 million, 
but $30 million or $50 million, as Congress has indicated, as 
funding for this kind of technology, you wouldn't have a 
handful of five or six or seven developers, most of whom are on 
the verge of shutting down because they have no funding. These 
are dissidents who are providing this at no financial benefit 
to themselves in order to help their brethren and their sisters 
left behind in China. And they cannot stay alive as their 
funding is cut off.
    If we were doing 20 or 30 or 40 or 50 million dollars of 
grant funding for these kinds of groups, we wouldn't have five, 
four of which are struggling to stay alive. We'd have 25 or 30 
or more--and that's what we want.
    Chairman Rubio. Well, just a couple of points. One, to the 
broader issue of BBG and the like, we have to understand these 
entities were--the world has changed much since they were 
created.
    The one I am most familiar with, of course, are the Martis, 
TV and Radio. And these were set up in a time when we had 
limited--three major networks and a handful of local, state, 
and national newspapers. Today, you literally are overwhelmed 
with news. I mean, there's just so much content.
    And so one of the things I have begun to argue--this is 
among our top priorities. I happen to be both on the 
Subcommittee on Appropriations that deals with this budget and 
on the Foreign Relations Committee. So I'm all over this. And 
it's a big priority on two fronts. The first is the question of 
whether or not we should continue to be primarily content 
providers and producers versus access providers and producers. 
And I do think I want us to become more access producers.
    Now, as far as whether or not we can deal with that 
language that they fought to get in there, it's very simple, 
that could just be the splash page that you go up--the BBG site 
could just be the site that comes up when you go on and then 
you could go from there.
    But the notion that you have argued, that what we want to 
be able to do is have multiple technologies, as many as 
possible available, so that people all over the world--this is 
not just China--people all over the world will be able to 
circumvent government censorship to get accurate news and 
information--and to connect with one another. To have access to 
social media that allows them to connect with one another is 
invaluable.
    I have often said that the Castro regime in Cuba has been 
able to hold on despite embargoes and the Cold War and 
everything else. The one thing they cannot survive is an open 
and free internet. Because once Cubans are able to talk to each 
other, they are able to organize action and also it lowers 
barriers of entry to free enterprise and the like. And so I'm a 
big believer in that and to continue to move in that direction, 
but we are dealing here with entrenched bureaucracies.
    And I would add one more point. In terms of the State 
Department, I do not believe it is helpful when we have someone 
as our acting secretary of state in the Bureau of East Asian 
and Pacific Affairs and now the nominee--which I hope will not 
continue--who I think is unfriendly to these efforts, and not 
just this effort, but the broader efforts that we're discussing 
here today. And that's another matter which is a top priority 
of ours and that we are working on as well. So you have my 
commitment on that to make this thing work.
    Ms. Lantos Swett. Thank you.
    Chairman Rubio. Congressman.
    Cochairman Smith. Thank you very much, Mr. Chairman. Thank 
you. I'll be very brief. And I thank you again.
    Let me just ask you, if I could, on an issue, Dr. Lantos 
Swett--I know the Lantos Foundation recently joined the Uyghur 
community in protesting in front of the Chinese embassy to ask 
about information about family members in the Autonomous Region 
who have disappeared and many are believed to be in re-
education camps or even worse. Among those family members are 
the relatives of six Radio Free Asia journalists based in 
Washington and family members of Rebiya Kadeer. I'm wondering, 
did you get any response back from the embassy from that?
    Ms. Lantos Swett. No, we did not get any response back from 
the embassy, but I must tell you it was a very moving 
experience for me. We stood there in the rain with over a 
hundred members of the Uyghur community. And what was most 
heartbreaking was person after person came to me with pictures 
of their relatives, their uncles, their aunts, their parents, 
their spouses, their children. It was truly heartbreaking.
    And I think this is--and I want to commend you, Congressman 
Smith, and you, Senator Rubio, because I know you have written 
about this yourselves--this is the most massive incarceration 
of a minority population in the modern era, you know, certainly 
since the Second World War. It is staggering. It is absolutely 
staggering. And it just passes by.
    And if I may, it speaks to, I think, a broader problem that 
I as a human rights activist feel we are dealing with when we 
are contending with China, and that is that everybody gives 
China a pass. China does things that are so outrageous and does 
them on such a scale and the world sort of ``tsks'' and moves 
on, moves on to the deals, moves on to the business, moves on 
to the commerce.
    And it is wrong. It is morally wrong, but it is also 
dangerous because--and I think you referenced this, Senator 
Rubio, as did you, Congressman--they are very consciously 
trying to say to a whole lot of other countries out there, We 
have a different model, we have another way and we are ready 
and we are loaded to challenge the United States as the model 
for the world going forward, and we are going to use our 
incredible, sort of, economic might and every tool at our 
disposal to put this alternate model out there.
    You know, I mentioned that my father was a Holocaust 
survivor from Hungary. It wasn't that long ago that Hungary--
Hungary, a country in the very center of Europe--spoke about 
wanting to pursue a model of illiberal democracy.
    Well, that's a pretty disturbing kind of language to hear 
from the heart of Europe. And we could look at lots of other 
examples.
    If we do not confront China on the ways in which it is 
trampling the international standards related to human rights 
and democracy and free access to information, to say nothing of 
the way in which they may be abusing the international 
financial and economic system--if we do not challenge them, 
they will continue down this road of saying to a very troubled 
and very chaotic world, we have another way, we have a way 
that, yeah, maybe it can lead to greater prosperity, yes, maybe 
it can achieve the laudable goal of bringing large numbers of 
people out of poverty, but at a price. And it is a price we 
should not be willing to pay.
    I referenced that biblical story of selling a birthright 
for a mess of pottage. Our birthright, our values, our profound 
commitment to our fundamental freedoms, they are what make our 
society worth defending. They are for us individually what make 
life worth living.
    And what a shame it would be, and what a shameful thing it 
would be were we to not be vigilant in standing up against this 
effort to, as I say, sell our precious human rights birthright 
for a mess of economic pottage.
    Cochairman Smith. Last year, a Chinese student's 
commencement speech at the University of Maryland--she praised 
the fresh air of free speech found in the United States and was 
praising that, and that went viral. She and her parents in 
China, however, were subsequently targets of harassment.
    How can our universities do a much better job in protecting 
these students? Because self-censorship, it seems to me, will 
become, has already become, the norm. I think it becomes even 
more so where everybody just, you know, gags themselves because 
why deal with all of that consequence?
    And then, obviously, the messages of the dictatorship 
become even more profound in the hearts and minds of their own 
people. So they do not come here and get liberated and find a 
whole new--I mean, I know a number of people studying in Europe 
right now who tell me that the government, you know, feels they 
own these Chinese students. They monitor them, they keep track 
of them, and at any university anywhere in Europe, same way 
here. What should our universities do to say, hey, you are 
free, at least when you are here, and to push back with the 
Chinese government on how they are mistreating their students 
who happen to be Chinese?
    Ms. Cook. Well, I would actually say I think one of the 
first things would actually be for the U.S. government to take 
action. A lot of this intimidation comes directly from Chinese 
diplomatic missions. These Chinese embassy officials have also 
been known to intimidate Chinese journalists here, intimidate 
advertisers, people who advertise in the Chinese community with 
media that are considered critical of the Chinese government. 
And that may go to Senator Rubio's question earlier about, you 
know, third-party interference and certain contractual 
agreements.
    I only know about this anecdotally, but I certainly know 
that it has happened, where people, advertisers, have been 
pressured by Chinese officials to withdraw advertising from 
critical news outlets. There was at least one case I wrote 
about in testimony I'd given to the USCC last year where an RCN 
executive was threatened by Chinese officials. I believe he was 
actually of Indian origin and there was some kind of pressure 
applied to him when he was trying to arrange for New Tang 
Dynasty Television to be aired in the Washington, DC area. 
Again, I don't know if that was before there was a contract or 
after a contract.
    But, you know, in conversations with other democracy 
activists here in the United States, it just seems like the 
Chinese embassy and consular officials are becoming more 
arrogant and more aggressive. And so I think that's something 
to perhaps take up with the State Department when these 
incidents happen.
    If you were to declare just one Chinese official persona 
non grata for these kinds of violations and, you know--and 
today when the Chinese government has talked about, Do not 
interfere in our internal affairs, but here they are 
interfering in our internal affairs--or some other kind of 
diplomatic demarche, I think that would send a very strong 
signal. And that's something that I think the U.S. government 
is wholly in the right position to do, and I think that that 
would actually counter some of the pressure on Chinese 
students.
    For universities there are a number of different things. I 
mean, one of the challenges is that often, for example, for 
Chinese student associations, the charters in Chinese are very 
different than what it says in English. And so, you know, there 
are university administrators who may not be aware of certain 
things that are happening in the Chinese student community. 
With more media coverage of this, I think they should be more 
aware.
    And there would be various--you know, I'm not an expert on 
student affairs--but various steps that could be taken to make 
sure Chinese students know about counseling services, about 
legal services, about other forms of support at a university so 
that when something like this happens, the students feel that 
there is someone at the university they can go and talk to 
about this.
    And then for the university to be equipped to also know 
with regard to, whether it is members of Congress who are aware 
of this or whether it's others within the State Department or 
the U.S. Government, of who they should turn to, because a lot 
of these universities themselves don't know.
    But to the extent that the universities are made aware of 
what would be the best ways for them, who they should contact 
and any strong diplomatic response that can come from the U.S. 
Government to this interference, and then for students to know 
that they have a resource at the universities.
    I would just, you know, if it's all right to comment on 
this issue, on the circumvention tools and some experiences 
we've had disseminating the China Media Bulletin in Chinese. We 
actually work with a number of tools who help, you know, post 
it on their landing pages. And it's quite effective in terms of 
informing Chinese readers, who are coming to these pages, of 
these options. And I know that a lot of the content from BBG, 
in some cases because it is especially popular, is also on 
those landing pages.
    But one of the challenges that happens in this realm, you 
know, and I would say it would happen in China, but also in 
places like Iran, there's a certain dynamism as certain events 
unfold and as authorities shift their resources to blocking 
certain tools, to removing VPNs.
    And so one recommendation I would urge considering is that, 
besides a certain amount of set funding for a diversity of 
tools, because that allows more flexibility in response, that 
if one tool gets blocked and users go somewhere else, it is 
supported, but some type of rapid response fund for emergency 
moments, for moments of political crisis.
    I have seen from the tool developers, it spikes. I mean, 
and in China, you know, it can range from--you know, it does 
not have to be mass protests like you saw in Iran. In China, it 
was when Bo Xilai's chief of police fled to the U.S. embassy--a 
spike. Chen Guangcheng fled to the U.S. embassy--a spike. 
Things like this example with regard to Instagram. Instagram 
gets blocked during the protests in Hong Kong--a spike, people 
want to access beyond.
    And so some kind of rapid response that would allow a quick 
stream of funding to be released to the tools that can 
demonstrate that, look, we are getting more demand, we are 
getting more requests from China or from Iran. I think that 
might be a way to also be able to respond quickly to the 
dynamism.
    And it has so much, you know, it has so many implications. 
It is not just about people being able to access information; 
this is how people post information, this is how they post 
videos.
    And these tools developers, it's not just about the number 
of users, it is also about the bandwidth they are able to 
supply. If they are only able to supply people with enough to 
read a couple of news articles, that's not really enough. If 
you have a YouTube video of something, a policeman beating up a 
protester, you can't upload that if you don't have enough 
bandwidth, if your circumvention tool developer doesn't have 
enough bandwidth. And those kinds of videos become so 
important, both internationally, but also domestically.
    And so I think that's where, again, at these particularly 
critical political moments, that's when we should be better set 
up to be able to infuse the tools that can demonstrate that 
they are in demand in order to meet the supply. Because 
otherwise, I know from some of the developers with regard to 
what happened in Iran, they could have helped millions more 
people, but they just didn't have enough money and, therefore, 
not enough bandwidth.
    Ms. Lantos Swett. If I can just--I think that's a really 
excellent suggestion, that idea of sort of an emergency fund 
that can be rapidly deployed as situations arise.
    But I did want to respond to one part of your question, 
Congressman Smith, because, of course, at the end of the day, 
we cannot entirely protect, we can't basically protect people 
in China or in any other country where they are being brutally 
repressed. And we know that the progress of freedom requires 
courage, it requires people in extraordinarily difficult 
circumstances who are willing to put their safety, their well-
being on the line.
    What is inspiring to me again and again and again is how 
many people in societies are willing to do that, but they are 
not willing to do it if it appears hopeless. And that is one 
reason why countries like China are so eager to create this 
information prison, to cut people off from the knowledge of 
what their fellow citizens are doing, of what's happening 
outside, of the criticism of their government, of what's 
happened in the past, of all of that information, because that 
sort of knowledge is where people find the courage and the 
strength to say no, I will not put up with this. I am going to 
take a stand. I am willing to take this risk.
    They are inspired when they know about, you know, the story 
of Liu Xiaobo or Chen Guangcheng or Gao Zhisheng, some of the 
other extraordinary people who are sacrificing so much. And 
that's why information, as you said, Senator Rubio, the free 
sharing of information among people within a country as well as 
with those outside, is the thing they fear the most.
    So we can't protect them, but we can give them enough 
access to what is really happening that they are strengthened 
and emboldened.
    You know, when the Universal Declaration of Human Rights 
was adopted, Eleanor Roosevelt had a wonderful phrase. And I 
won't be able to quote it perfectly, but she said that she 
hoped that through a curious grapevine, news of this document, 
this extraordinary document that laid out this breathtaking 
bill of rights for all people everywhere simply by virtue of 
being human, that through a curious grapevine it would find its 
way through walls and barbed wire to people in imprisoned 
nations.
    I love that notion of a curious grapevine and the internet 
is a great big curious grapevine. And we need to open it up for 
those who do not have free access to it.
    Cochairman Smith. I thank you both for that answer.
    And, you know, I'll never forget--very briefly--when Frank 
Wolf, who was here earlier, and I, were in Perm Camp 35 in the 
1980s, filled to overflowing with political prisoners, they all 
knew the Helsinki Final Act and could quote it verbatim. There 
they are being tortured, abused, starving, I mean, they had 
almost no--they were all gaunt beyond words, and yet they can 
quote different--so it gave hope, just like you said with the 
Universal Declaration.
    So, you know, it says in the Bible without hope the people 
perish, and I think hopefully we can bring some hope and some 
tangible assistance to these individuals. Thank you.
    Ms. Lantos Swett. Thank you.
    Cochairman Smith. Appreciate it.
    Chairman Rubio. Senator Daines.
    Senator Daines. Chairman Rubio, thank you. And thanks for 
holding this important hearing. And thanks to the witnesses for 
coming here today and providing perspective and expertise on a 
very important topic.
    You know, I spent more than half a decade working in China. 
In fact, I had two children born in Hong Kong. I've led CODELs 
to China the last three years, just came back three weeks ago 
in fact. I've had a chance to travel across the country. I have 
taken delegations to Urumqi and seen the prominent Uyghur-
Muslim population. I have visited Tibet with a group, seen the 
Buddhist monks. In fact, just recently we were in Dandong there 
on the Yalu River in a part of China that doesn't get a lot of 
attention, visits, and to see what is going on, certainly on 
the North Korean border.
    It's critically important, I believe, that we, as a nation 
that was founded on freedom and the rule of law, are clear-eyed 
about the challenges and the opportunities that China brings, 
especially in its relationship with the United States, a 
relationship I see as perhaps the most important and 
consequential relationship between any two countries in the 
21st century.
    Ms. Cook, in your testimony, you highlight the recent 
developments where the Chinese government removed Bibles from 
e-commerce websites in China. I was very aware of that when 
that happened, saw that. And while the sale or distribution of 
Bibles has always been restricted in China, I think this serves 
as yet another example of the hollowness of the claims the 
government is making of respecting religious freedom.
    You indicate that the removal of President Xi's term limits 
and other actions have resulted in some level of increased 
dissent. Have you seen any other similar responses to the 
removal of Bibles from e-commerce sites from the Christian 
community in China?
    And the second part of that question is, what are the 
prospects that this restriction might cause Chinese Christians, 
who have otherwise been apolitical, to become more engaged?
    Ms. Cook. Thank you, Senator. I have to admit I haven't had 
an opportunity to look closely at the particular reaction to 
that beyond, I think, some of the comments by people in the 
United States who are in regular touch with Christians there.
    But another research report that I wrote that was published 
last year was actually about religious revival, repression, and 
resistance in China. And in general, what we found across 
religious groups, including in the Christian community, is that 
it is precisely these kinds of actions by the government to 
believers, places of worship and leaders of Christians who, you 
know, don't necessarily belong to the underground church 
movement, but are, you know, worshipping at or leading state-
approved churches, that does bring a backlash, that actually 
begins to blur the line more between the underground church 
movement and the state-sanctioned church movement.
    And one of the things that you see is that, in general, as 
the Chinese government, in terms of various regulatory moves, 
squeezes the space for the spread of Christianity and other 
religions as well, more people are seeking out alternative 
opportunities. So, for example, with regard to leadership 
training, they limit the number of people who can go study at 
seminaries, so you have people actually studying through radio 
station opportunities based out of Hong Kong, through online 
courses.
    And so I think something like this restriction on being 
able to purchase Bibles may very well, though I haven't had a 
chance to see specific data, have the exact effect of this 
Instagram example from 2014 where a new academic study found 
that when there were protests happening in Hong Kong, the 
Chinese government blocked Instagram and more people jumped the 
firewall to seek out information, to seek out the platform and 
came across all kinds of other uncensored information.
    And my sense would be that, actually, this can have a 
counterproductive effect for the Chinese government, because 
instead of Christians purchasing Bibles on the Alibaba platform 
and other e-commerce platforms that are above ground, now 
you'll have more people seeking out circumvention tools, 
seeking out other ways of obtaining Bibles that will encourage 
them to maybe look more broadly at other forms of information.
    Senator Daines. I think one of the other statistics that 
might be surprising to many in the United States is, if you 
look at the top 10 internet companies in the world, five of 
them are now Chinese. Look at the top six internet companies in 
the world, three of them are Chinese.
    The U.S. still is number one, measured by revenues, but 
we've got Chinese internet companies now that are exceeding 
market caps of $500 billion. We've got Amazon and Google 
Alphabet, there's one and two, but then you get to JD.com, 
Alibaba, Tencent. And it's, I think, pretty eye-opening.
    So when we see this censorship of Bibles in e-commerce, 
these aren't just small backwater companies, these are huge, 
leading, top-five companies in the world related to e-commerce 
and can have a profound impact, certainly on not only China, 
but, frankly, extending their influence around the world.
    Ms. Cook. Absolutely.
    Senator Daines. I want to shift gears to Dr. Lantos Swett.
    In your testimony, you raised the fact that China is not 
satisfied with simply censoring its own population, but also is 
seeking to influence speech and actions abroad, whether it's 
the self-censorship of scholars, foreign publishers, 
businesses, or sometimes academic journals related to doing 
work in or about China.
    What are the long-term effects of such actions? And what 
could be done to maintain academic integrity and the principle 
of free expression in the face of such pressures?
    Ms. Lantos Swett. Well, I think the long-term implications 
are obviously very, very disturbing. And I think that we have 
to do a better job of sort of shining a very unflattering light 
on those institutions that are increasingly compromising their 
own commitment to, as Mr. Hamilton said, the founding 
principles of the Western university in order to ease their 
access to China, whether it's access for their scholars, 
whether it's access to their wealthy, full-tuition-paying 
students, whether it's access to business opportunities.
    At the moment, these insidious, sort of, infiltrations of 
Chinese censorship influences into some of our most cherished 
institutions are not yet widespread, but it is spreading.
    And I think, you know, frankly, it's something that the 
Congress needs to think about. I don't know whether this would 
be appropriate and within the brief of this Commission, but I 
think it would be fascinating to have a hearing with some of 
the university presidents whose universities have major 
programs that involve China and ask them some of the tough 
questions about the compromises they have been making.
    I think it was before you joined us, Congressman Daines, 
but Clive Hamilton spoke about what he was more fearful of, 
which is the self-censorship, not the obvious, evident, seen 
hand of China, but the decision by institutions and 
organizations to preemptively censor themselves, to 
preemptively make decisions that avoid the issue ever arising 
because they think that that sort of hides it from public 
scrutiny. I think in many ways he's right, that that is almost 
the graver threat.
    I did want to say one thing, if I may, about the issue of 
religious freedom in China. I previously had the great 
privilege of serving as the chair of the U.S. Commission on 
International Religious Freedom. And obviously, China is a 
world-class abuser of religious freedom rights.
    And I agree with Sarah that their efforts in that regard 
run the risk of backfiring, but I also think there, too, we 
have an area where our government has not spoken out 
assertively, proactively enough about the importance of 
defending religious freedom in China. The reality is that so 
often when it comes to human rights causes, the most 
significant weapon we have to wield is the voice of our top 
leadership. It still has an influence.
    And I am concerned that this administration does not seem 
to have a particularly active sense of the role that defending 
human rights and defending fundamental freedoms should play in 
a whole-of-government approach to advancing our interests, 
whether it be in relation to China or other countries.
    So we need to lean forward, we need to understand that when 
we play from our strengths, we win. And what are our greatest 
strengths? It is not our economic might, it is not our military 
might. They are indispensable, they are awe-inspiring, but they 
are not our greatest strength. Because guess what? Other 
countries, other adversaries, if you will, of ours have great 
economic strength, have great military might.
    What has distinguished us, what has made us extraordinary 
in the world was the way that we grew from values, profound 
values. And that's where our strength came from. And I would 
like to see us remember that and integrate these principles and 
these tools in a whole-of-government approach in every aspect 
of our foreign policy.
    Senator Daines. Thank you, Dr. Lantos Swett.
    Thank you, Mr. Chairman.
    Chairman Rubio. Well, I thank you both for being here. I 
appreciate the time you have given us. I think this has been an 
informative hearing. I think from it we take a number of ideas, 
particularly the expansion and ensuring that we can get in 
there and figure out, number one, is $15 million enough? And 
number two, is the $15 million, why isn't all of it, if it's 
not, being spent on broader access to additional tools that are 
constantly being reinvented as governments figure out how to 
block those? And number three, the ability and contingencies to 
surge up if, for example, what happened in Iran were to happen 
again. It is a time where we know there will be high demand by 
people to find out in the news what's actually going on. And 
there may be times where we might be able to surge access.
    I would also say that, in some particular parts of the 
world, and this probably applies a lot less to China, but just 
since we are talking about that concept, you know, one of the 
things, there are places where the internet itself is 
nonexistent or denied to people. And I know for a fact that 
satellite technology is used in remote parts of the world and 
in other places to provide people content, access to the 
internet. Why can't that be used to apply access to a free 
internet, for example, on the island of Cuba where the 
government doesn't want them to have access to the internet?
    And so in that case, it isn't just--what is blocking 
internet access is not just the firewall, it is the fact that 
it literally does not exist, and when it does it is very 
expensive. So there is a lot to work on in terms of the 
information flow.
    And then just in terms of the long arm--I mean, one of the 
functions of this Commission is to raise awareness. I still 
think that what we have discussed here today has been reported, 
but the vast majority of people are just largely unaware of 
what is happening. And if we take what happened in Australia, 
we can begin to see the edges of it occurring here.
    We are so used to living in a world where we had all the 
leverage and all the influence, that the notion that it somehow 
has been turned back on us, and it isn't just attacking our 
economic interests but our basic fundamental principles, is 
just lost on people. And we cannot allow that to continue.
    And we need to look for creative ways to go about it. Some 
real good suggestions here, some of which we have already begun 
to work on, some of which the authorities already exist under 
Global Magnitsky to go after individuals responsible for these 
sorts of activities, but then also potentially causes of action 
against people who lose contracts or are fired because of 
interference by a foreign government, not just China. And I 
think companies like Marriott and others would be, I think, 
very reticent or be more careful about how they would approach 
this.
    As I close, I wanted to read from something here that was 
in our opening memo because I thought it was stark in 
comparison to the apology that Congressman Lantos was able to 
get years ago. I have it here in the notes. And it goes back 
to--this is a statement from the chief of Marriott, Arne 
Sorenson. And this has to do--when the Chinese authorities 
blocked Marriott International's websites and apps for a week 
in China because they listed Tibet, Hong Kong, Macau, and 
Taiwan as separate countries in a customer survey. They 
demanded an apology and they demanded that they seriously deal 
with the people responsible. And it was as a result of some of 
this that we saw some of these actions.
    But Marriott issued a formal apology, unlike the one issued 
to the mother of that gentleman who was jailed. They issued a 
formal apology. Here is what Marriott's chief, Arne Sorenson, 
said. ``We don't support anyone who subverts the sovereignty 
and territorial integrity of China and we do not intend in any 
way to encourage or incite any such people or groups. We 
recognize the severity of the situation and sincerely 
apologize.''
    Well, again, I would say to you that there are people 
living in Taiwan who have a very different, a strong difference 
of opinion with Mr. Sorenson and with the Communist Party about 
sovereignty and territorial integrity. And so this is an 
American company benefiting from the freedom and the 
opportunities in this nation, who come up here and lobby for 
tax cuts and deregulation, everything that benefits them, 
basically openly apologizing and firing an American in order to 
be able to continue to operate in that marketplace.
    We see this trend repeated over and over and over and over 
again. And when I read about the CEO of Apple at an internet 
conference, an internet freedom conference in China talking 
about, on the one hand, attacking a rival for selling off data 
and information and on the other hand turning over the entire 
cloud in China to a government server, the hypocrisy is 
unbelievable. Unbelievable.
    And yet, somehow, they get away with this. They are held up 
as these heroes. And we need to continue to call that out and 
shame it for what it is. You cannot be representing yourself 
here in this country as a defender of freedom and openness and 
yet complicit and accomplices of repressive regimes under the 
guise of, We have to follow their laws because their markets 
require it. It goes to show that the bottom line and the 
ability to look good in front of shareholders and return 
profits is more important than the supposed universal values 
that these companies have no problem touting here at home where 
they have the freedom to do so without retribution--and all we 
can do is talk about it.
    We are going to continue to do that. We are not going to 
allow what happened in Australia to happen here. I promise you 
that. And we are going to help Australia deal with it as well.
    So I thank you, because what you have provided us here 
today is invaluable. And I am grateful for the time you have 
given us, for your insight. We look forward to continuing to 
work with you.
    The record for the hearing will remain open for 48 hours.
    Dr. Lantos Swett, the totality of your prepared statement 
will be entered into our record without objection.
    And with that, the hearing is adjourned.
    [Whereupon, at 11:51 a.m. the hearing was concluded.]

     
      
      
      
=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  Prepared Statement of Clive Hamilton

    My background is not in China studies but in politics and public 
policy. I decided to write ``Silent Invasion: China's Influence in 
Australia'' in 2016 when it became obvious from newspaper reports that 
interference by the Chinese Communist Party in Australian politics is a 
serious issue that demands greater public awareness. Conversations with 
China experts soon established that the threat is more serious and 
deep-rooted than I had realised. Nevertheless, the scale and nature of 
the threat is one lay people need to understand. Since publication of 
``Silent Invasion'' on February 26th of this year, it has become clear 
to me that many Australians have had an intimation that something is 
wrong and want it explained to them.
    When I formulated the idea of the book, Allen & Unwin, a highly 
respected independent publisher that had published eight previous books 
by me, could immediately see its importance and commercial appeal and 
we soon signed a contract. However, last November, as the finished 
manuscript was about to go to typesetting, Allen & Unwin notified me 
that it would not proceed with publication. The CEO wrote saying that, 
based on advice it had received, the company was reacting to 
``potential threats to the book and the company from possible action by 
Beijing.'' He went on to write: ``The most serious of these threats was 
the very high chance of a vexatious defamation action against Allen & 
Unwin, and possibly against you personally as well.''
    The company's defamation lawyer had pointed out that it would not 
be possible to make textual changes to the book that would protect the 
company from vexatious legal actions by Beijing's proxies in Australia, 
legal actions that would tie up the company in expensive legal action 
for months or longer. Compared to those of the United States, 
Australia's defamation laws favor the litigant.\1\
---------------------------------------------------------------------------
    \1\ Australian journalists hold important information about the 
activities and Communist Party links of agents of influence in 
Australia that cannot be published without significant legal risk.
---------------------------------------------------------------------------
    Allen & Unwin believed that in addition to punitive legal actions, 
Beijing may retaliate by shutting down the company's website with 
denial-of-service cyberattacks and by blocking access to printeries in 
China, where many books are printed.
    Why was Allen & Unwin so nervous? The company had been spooked by 
recent (and still current) defamation actions taken against major news 
organisations by ``whales,'' a reference, I believe, to legal action 
taken by Chau Chak Wing, a Chinese-Australian billionaire resident in 
Guangdong, and Huang Xiangmo, a wealthy Chinese citizen residing in 
Sydney. (Both are discussed in ``Silent Invasion.'') Australia's 
domestic intelligence agency, the Australian Security Intelligence 
Organization (ASIO), has warned the major political parties that they 
should not accept donations from these men because of their suspected 
links to the Chinese Communist Party.\2\
---------------------------------------------------------------------------
    \2\ Nick McKenzie, Chris Uhlmann, Richard Baker, Daniel Flitton, 
``ASIO warns parties that taking China cash could compromise 
Australia,'' Sydney Morning Herald, June 5, 2017.
---------------------------------------------------------------------------
    Chau Chak Wing claims that he was defamed in a 2016 story published 
in the Sydney Morning Herald and again in 2017 in a ``Four Corners'' 
television documentary program produced by the ABC and Fairfax 
(publisher of the Sydney Morning Herald). In their defense against Chau 
Chak Wing's statement of claim, the ABC and Fairfax Media told the 
court there are reasonable grounds to believe that Chau Chak Wing 
``betrayed his country, Australia, in order to serve the interests of a 
foreign power, China, and the Chinese Communist Party by engaging in 
espionage on their behalf.'' \3\
---------------------------------------------------------------------------
    \3\ Clive Hamilton, ``Silent Invasion,'' p. 78.
---------------------------------------------------------------------------
    Huang Xiangmo was for several years the president of the Australian 
Council for the Promotion of Peaceful Reunification of China, the peak 
United Front body in Australia, and in 2017 was at the center of the 
political scandal that led to the resignation of Senator Sam Dastyari. 
The Prime Minister has described Mr. Huang as ``an agent of a foreign 
country.'' \4\ He took legal action against the Herald-Sun newspaper (a 
News Corp outlet).
---------------------------------------------------------------------------
    \4\ Peter Hartcher, `` `Icebreakers': How Beijing seeks to 
influence the West,'' Sydney Morning Herald, December 5, 2018.
---------------------------------------------------------------------------
    It is difficult to know whether the defamation actions launched by 
these billionaires had political motives, but there is little doubt 
that they have had a chilling effect on reporting by news outlets in 
Australia, and now on the book publishing industry. It's worth noting 
that in December 2017 an editorial in the People's Daily in effect 
endorsed the use of lawfare abroad, another instance of the Chinese 
Communist Party exploiting the institutions of democracy to undermine 
democracy.
    Allen & Unwin's decision to drop ``Silent Invasion'' citing fear of 
reprisals from Beijing was a spectacular vindication of the argument of 
the book. No actual threats were made to the publisher, which in a way 
is more disturbing. The shadow cast by Beijing over Australia is now 
dark enough to frighten a respected publisher out of publishing a book 
critical of the Chinese Communist Party. (It's worth remembering that 
for all the opprobrium heaped upon it, Allen & Unwin is a victim too.)
    My dismay was compounded as I realised that the shadow and Allen & 
Unwin's fear of it had frightened off the rest of the publishing 
industry. Big publishers like Penguin, HarperCollins, and Hachette did 
not come knocking on my door, even though the spiking of the book had 
attracted headlines around the world.
    I worry about the message that has now been sent to China scholars: 
``If you write a book critical of the CCP you will have trouble finding 
a publisher, so censor yourself or play safe and write about Ming 
dynasty architecture.'' China scholars have told me that they censor 
themselves in order not to jeopardise their visas to do research in 
China, and so protect their careers.\5\
---------------------------------------------------------------------------
    \5\ Phila Sui, ``What's the `dirty secret' of Western academics who 
self-censor work on China?,'' South China Morning Post, April 21, 2018.
---------------------------------------------------------------------------
    Two independent publishers did express strong interest in ``Silent 
Invasion'' but pulled out, citing the same fear of payback. One was 
Melbourne University Press, the nation's most prominent university 
publisher, a company of the University of Melbourne, by some measures 
Australia's top-ranked university. Its Board took the unusual step of 
overruling its chief executive on a publishing decision. Sources close 
to MUP have told me that a factor in the Board's decision was the 
anxiety of senior university executives about the potential impact of 
publication on the university's lucrative revenue flows from Chinese 
students.
    Clearly, the situation is dire when a university press will not 
publish a scholarly book about the Chinese Communist Party for fear of 
punishment by the Party. Along with other instances of universities 
sacrificing intellectual freedom to ingratiate themselves with Beijing 
(detailed in the media and in my book), it is no exaggeration to say 
that Australian universities now tiptoe over eggshells to avoid any 
action that may offend Party bosses in China.
    If not for the courage and commitment to free speech of Sandy 
Grant, the principal of Hardie Grant, ``Silent Invasion'' may well have 
gone unpublished, which would have been a comprehensive victory for the 
Chinese Communist Party.\6\
---------------------------------------------------------------------------
    \6\ In 1987 Sandy Grant was the publisher at Heinemann who defied 
the British government to publish ``Spycatcher,'' an expose of MI6, by 
Peter Wright. In the celebrated court case, won by the publisher, 
Heinemann's barrister was a young Malcolm Turnbull.
---------------------------------------------------------------------------
                  #          #          #          #          
          #

    Recently, we have seen major Western publishers (Cambridge 
University Press and Springer) compromise academic freedom by censoring 
their publications at the insistence of Beijing. (CUP reversed its 
decision after an outcry.) They did so to maintain access to the 
Chinese market. In the ``Silent Invasion'' case the fear was not about 
what the CCP could do in China (cut off access to markets) but what the 
CCP could do in Australia (sponsor legal actions). As I detail in the 
book, the tentacles of the Party now reach into all of the important 
institutions in Australia.
    The spiking of ``Silent Invasion'' represents perhaps the starkest 
attack on academic freedom in recent Australian history. It attracted 
intense media interest and strong support from the public. As I 
searched for a publisher, some members of Parliament proposed 
publishing the manuscript in Hansard, both as a statement in defence of 
free speech and to give it legal protection under the laws of 
parliamentary privilege.
    However, throughout the saga one sector maintained a studied 
silence--the universities. No representative organisation (notably, 
Universities Australia and the Group of Eight) or prominent vice-
chancellor made any kind of statement supporting me, a professor 
apparently being targeted by a powerful foreign state because of his 
work. Yet three months later, in a submission to a parliamentary 
inquiry into the proposed new foreign interference laws, Universities 
Australia bleated about the threat posed by the new laws to academic 
freedom. These are laws designed explicitly to prevent foreign powers 
from suppressing free speech, yet the universities were concerned about 
how they might harm the well-being of their international students and 
jeopardize their research collaborations. These collaborations 
presumably include the plethora of research links that Australian 
universities have with Chinese scientists doing military-related 
research in universities linked to the People's Liberation Army, a 
phenomenon uncovered by my researcher Alex Joske and detailed in 
newspaper articles by us and reprised in ``Silent Invasion.'' 
Australian universities are now so closely tied into monetary flows and 
links with China that they have forgotten the founding principles of 
the Western university.
    The University of Sydney, for example, last year enrolled 25,000 
international students, the majority from China. Numbers had doubled 
over four years and last year generated Australian $752 million (US 
$570 million) in revenue.\7\ The University of Sydney's Vice-
Chancellor, Dr. Michael Spence, has claimed there is no evidence for 
Chinese government interference on his campus and labeled the mounting 
warnings by the government, based largely on ASIO reports, as 
``Sinophobic blatherings.'' \8\ Chau Chak Wing last year donated $15 
million to the university, which will be used for a building named 
after Chau at the university's front gates.
---------------------------------------------------------------------------
    \7\ Matt Wade, ``Degrees of risk: inside Sydney's extraordinary 
international student boom,'' Sydney Morning Herald, March 2, 2018. 
Compared to last year, enrollments from China at Australian 
universities have surged by 18 percent in 2018, totaling 173,000 (Tim 
Dodd, ``Chinese defy warnings and flock to Australian universities,'' 
The Australian, April 18, 2018).
    \8\ Andrew Clark, ``Sydney Uni's Michael Spence lashes government 
over `Sinophobic blatherings,' '' Australian Financial Review, January 
28, 2018.
---------------------------------------------------------------------------
                  #          #          #          #          
          #

    Publication of ``Silent Invasion'' has prompted an intense and at 
times rancorous debate within the community of China scholars in 
Australia. Some 50 ``China scholars'' (many of whom have no expertise 
in PRC politics) have signed an open letter in which they characterise 
expressions of concern about PRC influence as ``the creation of a 
racialised narrative of a vast official Chinese conspiracy.'' \9\ They 
reject the proposed foreign interference laws because they ``see no 
evidence . . . that China is exporting its political system to 
Australia.'' Although no one has said that the CCP is exporting its 
Leninist party governing system to Australia, the evidence from a range 
of sources that the CCP is extending the operations of its influence 
and propaganda system to Australia is now overwhelming.\10\
---------------------------------------------------------------------------
    \9\ https://www.policyforum.net/an-open-letter-from-concerned-
scholars-of-china-and-the-
chinese-diaspora/. The organizer of the letter was Dr. David Brophy, a 
lecturer at the University of Sydney, who had just written a scathing 
review of ``Silent Invasion.'' He denounced it as a ``McCarthyist 
manifesto'' and a ``paranoid tome'' that adds to ``our all-too-rich 
library of Asian invasion fantasies.'' Many of his arguments and 
expressions were reproduced in the letter.
    \10\ This claim is all the more extraordinary when made by David 
Brophy, whose work concentrates on the Uyghurs of Xinjiang, including 
their brutal suppression. His writings suggest that his anti-
Americanism overwhelms his judgement.
---------------------------------------------------------------------------
    There are none so blind as those who will not see. But why will 
they not see what Beijing is doing in Australia? One can only 
speculate. For the most part, I don't believe they have been captured 
or are agents of any kind. They express their genuine convictions. They 
see Communist Party rule through rose-tinted glasses because they 
believe that, for all its faults, ``the Party has lifted 600 million 
people out of poverty,'' \11\ or that the first priority must be to 
shield people of Chinese heritage in Australia from xenophobia, or that 
Australia's institutions are too robust to be influenced in the ways 
suggested. For some, China is still seen through the lenses of a 
romantic Maoism; for others a visceral anti-Americanism makes them 
welcome a global challenger.
---------------------------------------------------------------------------
    \11\ This claim, propagated by the CCP, is often repeated by 
elites, notably former prime minister Paul Keating, perhaps the 
foremost Australian apologist for CCP rule. Yet, as I write in ``Silent 
Invasion,'' the Communist Party did not lift 600 million people out of 
poverty; it kept 600 million people in poverty. It was only when the 
CCP lifted its foot off the neck of the Chinese people and permitted 
basic economic rights--the rights to own property, to set up a 
business, to move one's residence, to work for whoever one liked--that 
the Chinese people could lift themselves out of poverty.
---------------------------------------------------------------------------
    The Global Times, the CCP's nationalistic tabloid, warmly welcomed 
the intervention of these China scholars as proof that the debate over 
CCP influence in Australia is only ``fanning the flames'' of racial 
animosity.\12\
---------------------------------------------------------------------------
    \12\ https://m.huanqiu.com/r/
MV8wXzExNzA5NjE0XzEzOF8xNTIyMjY3MjAw?pc_ 
url=http%3A%2F%2Fworld.huanqiu.com%2Fexclusive%2F2018-
03%2F11709614.html.
---------------------------------------------------------------------------
    Those who signed the open letter divided themselves sharply from 
many other China scholars, some of whom composed a rival letter 
rejecting their substantive claims. Those in the second group 
``strongly believe that an open debate on the activities of the Chinese 
Communist Party (CCP) in this country is essential to intellectual 
freedom, democratic rights, and national security.'' \13\ They reject 
claims the debate is characterised by racism and note that it is led by 
a number of Chinese-Australian scholars. The letter then describes the 
kinds of subversive activities practiced in Australia by the CCP.
---------------------------------------------------------------------------
    \13\ https://www.policyforum.net/chinas-influence-australia-
maintaining-debate/.
---------------------------------------------------------------------------
    Predictably, the Global Times wrote that those who signed the 
second letter are only stirring up trouble by supporting the 
government's foreign interference legislation.
                  #          #          #          #          
          #

    In March, the Australian Values Alliance, a group of Chinese-
Australians opposed to Communist Party interference in Australia, 
organised a launch event for ``Silent Invasion'' at NSW Parliament 
House in Sydney. (It's not clear how those accusing me of stoking anti-
China sentiment explain away the enthusiastic support for the book from 
some segments of the Chinese-Australian community.) The organisers' 
WeChat messages were censored from Beijing. A week after the launch one 
of the group's leaders, John Hu, was deported from China when he 
arrived at Shanghai airport with his 80-year-old mother to scatter the 
ashes of his father.\14\ He was told he was getting off lightly; it 
would be much worse for him if he were allowed in and then taken into 
custody. The message to Chinese Australians was unambiguous.
---------------------------------------------------------------------------
    \14\ http://www.abc.net.au/news/2018-03-21/australian-outspoken-
about-communist-party-
denied-entry-to-china/9573830.
---------------------------------------------------------------------------
    A Ministry of Foreign Affairs spokeswoman was asked by a Global 
Times journalist whether ``Silent Invasion'' was guilty of ``inventing 
stories for malicious sensationalism, condemning the author for 
poisoning Australia-China relations for achieving fame.'' \15\ She duly 
trashed the book as ``slander'' and ``good for nothing.'' The Embassy 
in Canberra issued a similar spray, calling the book ``racist bigotry'' 
and a ``malicious anti-China mentality.'' \16\
---------------------------------------------------------------------------
    \15\ Bill Birtles, ``China cites Australian critics to trash Clive 
Hamilton's controversial new book'', ABC News online, March 2, 2018.
    \16\ Phila Sui, ``What's the `dirty secret' of Western academics 
who self-censor work on China?,'' South China Morning Post, April 21, 
2018.
---------------------------------------------------------------------------
    The condemnations of me and my book are but a small part of a much 
larger strategy to emerge in recent times. Beijing is ramping up its 
rhetoric against Australia in a calibrated campaign of psychological 
warfare. Beijing knows that it cannot bully the United Sates_in the 
current environment the consequences would be unpredictable and 
probably counterproductive_so it is instead pressuring its allies. Last 
week the PLA Navy challenged three Australian warships sailing through 
the South China Sea, simply for being there. It has scaled up its 
threats of economic harm unless Australia changes its ``anti-China'' 
path. This psychological warfare is only Stage 1, with real punishment 
to follow if needed.
    Yet there is no shortage of Beijing sympathisers and appeasers 
among Australia's elite, calling on Australian politicians, scholars 
and commentators to ``tone down the rhetoric,'' \17\ as if the current 
strain in the relationship were our fault rather than Beijing's 
campaign of subversion, cyber intrusions and harassment on the high 
seas. Former Prime Minister Kevin Rudd has recently echoed this view. 
This self-criticism (reminiscent of the self-abasement sessions of the 
Cultural Revolution) looks like the 21st century's version of 
kowtowing. When China's Foreign Ministry calls for a return to ``mutual 
trust,'' it means a return to compliance.
---------------------------------------------------------------------------
    \17\ Perhaps the leading exponent is mining billionaire Andrew 
Forrest, who seems to be on a one-man mission to ``broker peace'' using 
his top-level contacts in the Chinese Communist Party (see Michael 
Smith, ``China ramps up anti-Australia talk as tensions surface,'' 
Australian Financial Review, April 21-22, 2018). It's not clear which 
element of Australian society he has appointed himself to acting for. 
In 2013 John Garnaut pointed out that Forrest had been targeted as a 
potential agent of influence by a PLA Liaison Department operation. An 
innocent abroad, Forrest's key contact in Beijing turned out to be a 
lieutenant general in the PLA (``Chinese military woos big business,'' 
Sydney Morning Herald, May 23, 2013).
---------------------------------------------------------------------------
    My New Zealand counterpart Professor Anne-Marie Brady has faced a 
harder time, as she is virtually alone in exposing CCP influence 
operations in that nation. In recent months both her office at the 
University of Canterbury and her home have been burgled, with the 
thieves ignoring valuables in favor of laptops and a passport.\18\ The 
government has asked its intelligence service to investigate.
---------------------------------------------------------------------------
    \18\ Philip Matthews, ``PM to follow up break-in at house of 
academic studying China's power,'' Stuff Politics, February 20, 2018. 
Australia's foremost expert on United Front activity, Gerry Groot, has 
suggested that the burglaries may have been the work of triads acting 
on Beijing's instructions (Martin McKenzie-Murray, ``Inside China's 
`united front,' '' The Saturday Paper, March 3, 2018). The Communist 
Party's use of criminal gangs is well known in Hong Kong and Taiwan.
---------------------------------------------------------------------------
    Exposes of United Front work, including Brady's and my own, 
highlight something essential to understand about the CCP's foreign 
influence and interference strategies. Their secretiveness and subtlety 
lend them a high level of deniability. Beijing's strident and at times 
hysterical public commentary can obscure this fact. Shining a light on 
its tactics and activities makes it uncomfortable and liable to react 
with fury.
                  #          #          #          #          
          #

    As a coda to this statement, it might be worth adding that after 
the Allen & Unwin story broke in November and reinforced by news of the 
Anne-Marie Brady burglaries in February, I have had to take extensive 
measures to step up my personal security. The measures have been based 
on advice from top-level law enforcement and surveillance experts. The 
following are among the concerns and measures taken:
     A suspicious stranger arrived outside my office building and sat 
for some hours using what a surveillance expert later suggested may 
have been a ``sniffer'' phone, a device capable of picking up Wi-Fi and 
mobile transmissions. She also entered the building before suspicions 
were aroused.
     This incident and one or two others led to the installation of 
CCTV cameras and a permanent ``lock-down'' of the office building.
     Malware was found in ``every nook and cranny'' of my computers, 
requiring a scrubbing of hard drives, reinstallation of operating 
systems and adoption of advanced cyber protections.
     People believed to be Chinese students were confronted after they 
were caught checking the contents of my unmarked pigeon-hole in a 
secure area of the National Library of Australia.
     I have been provided with countersurveillance advice by experts, 
and security guards have been provided at my public appearances.
    I do not seek sympathy. But I am a citizen of a democratic nation 
that prizes free speech. It offends me that as a result of exercising 
my right to free speech by writing a book, it has been necessary to 
take these steps to protect myself from an authoritarian foreign power.
                                 ______
                                 

               Prepared Statement of Katrina Lantos Swett

    Good morning. I want to thank Senator Rubio and Congressman Smith 
for the invitation to participate in this hearing and I want to commend 
you both for convening a hearing on such an important topic. I would 
ask that my full testimony, including relevant correspondence between 
the Internet Freedom Coalition and the State Department, BBG, and 
Members of Congress be included as part of the hearing record.
    The French have a wonderful saying, ``Plus ca change, plus c'est la 
meme chose''; the more things change, the more they remain the same. I 
could not help but think of this phrase as I prepared my remarks for 
today's hearing.
    Over ten years ago, my late father, Tom Lantos, then Chairman of 
the House Foreign Affairs Committee, held a hearing that crystallized 
the sad truth about the devastating moral compromises so many major 
companies and countries, including at times, our own, are willing to 
make in order to appease the Chinese government and gain access to its 
vast markets.
    The Chief Executive of Yahoo, Jerry Yang, was in my father's 
crosshairs that day over his company's cooperation in giving up the 
identity of a dissident journalist, Shi Tao, to the Chinese 
authorities. After Yahoo disclosed his identity to the government, Mr. 
Shi was sentenced to prison for 10 years for the crime of engaging in 
pro-democracy activities. As these high tech billionaires and 
technological whiz kids sat before him, my father, who came to this 
country as a penniless Holocaust survivor from Hungary, said, ``While 
technologically and financially you are giants, morally you are 
pygmies.''
    On that memorable occasion, Jerry Yang felt so ``called out'' by my 
father's words that he actually turned around and publicly bowed in 
apology to Mr. Shi's weeping mother, who was seated behind him. It was 
a dramatic moment, to be sure, but most episodes of cowardly kowtowing 
and quiet collaboration with the bullies, the censors, and the 
persecutors of the Chinese Communist Party occur without public comment 
or scrutiny. Furthermore, as today's hearing demonstrates, China is not 
content with censoring and controlling its own citizens. It is using 
the immense power of its financial resources to reach every corner of 
the world in an effort to intimidate businesses, universities, 
publishers, hotel chains, religious institutions, human rights 
democracy activists, and even governments. It pains me to have to say 
this, but right now, China is succeeding in this effort to a shocking 
degree. Even more shocking, later in my remarks I will expose why I 
feel our government is doing far too little in the way of Internet 
freedom to truly help the people of China and other repressed regimes 
around the world.
    Two of my fellow witnesses this morning have had personal 
experiences with the long arm of Chinese government intimidation and 
their testimony is a cautionary and chilling tale. Just as my father 
did back in 2007, we must use the power of public naming and shaming to 
try and restrain the worst impulses of businesses, other organizations, 
individuals, and even our own government agencies who seem all too 
willing to sell their precious birthright of free speech and democracy 
for a mess of Chinese pottage.
    To be clear, I think we all recognize that the Internet is not an 
unalloyed good when it comes to spreading ideas and expanding the 
borders of freedom and democracy. As Shakespeare so memorably penned, 
``The web of our life is of a mingled yarn, good and ill together.'' It 
is analogous to our intricate system of modern transportation. While we 
recognize that it contributes to pollution, congestion, disrupts the 
environment, and of course, makes possible terrible accidents involving 
injuries and fatalities; nonetheless, it is the indispensable 
circulatory system that makes possible our modern world of travel and 
commerce. Similarly, the Internet, despite its ability to spread hate, 
disrupt elections, and propagate fake news, is indispensable to our 
modern system of global communication. And as such, it is central to 
freedom of expression everywhere in the world.
    That is why there was so much enthusiasm and energy eight years ago 
when then Secretary of State Hillary Clinton delivered a landmark 
speech on Internet freedom. I was sitting in the audience that day and 
felt the surge of optimism as our nation's top diplomat laid out a 
robust vision of America's central role in tearing down what Secretary 
Clinton referred to as ``the Berlin Wall of our digital age.'' 
Remember, I am the daughter of the only member of Congress who 
personally experienced the horrors of living under fascism of the 
right, the Nazis, and the totalitarianism of the left, the Communists. 
It is in my DNA to resist these authoritarian efforts to control free, 
uncensored access to knowledge and I'm pretty sure, Senator Rubio and 
Congressman Smith, that it is in your DNA too.
    The year after that speech, the Lantos Foundation played a leading 
role in redirecting a good part of our government's spending on 
Internet freedom to the BBG. Prior to that, almost all funding was 
inside the State Department, and frankly, it led to situations where 
China was able to deftly use the U.S.'s efforts to open the Internet 
and circumvent their ``Great Firewall'' as a diplomatic bargaining 
tool. Clearly, as a human rights organization, we believe that access 
to the Internet is a modern human right that should not be bargained 
away, so we sought a ``safer'' home for the funding and felt the BBG 
had enough independence to play a leading role in opening the Internet 
across the globe.
    In the early years of this adjustment in the way our government 
funded anti-censorship tools, Internet freedom initiatives were not 
perfect, but our government was funding a number of technologies to 
provide open access and we were moving in the right direction. Today, 
it pains me to have to sit before you and express my deep 
disappointment and frustration with the actual results and current 
commitment of our country's Internet freedom policy. I've heard it said 
that if China herself had been in charge of America's Internet freedom 
policy, it could hardly have been more favorable to China's interests. 
That is an extraordinarily harsh assessment, perhaps harsher than I 
myself would subscribe to, but let me tell you why I think it is not 
far off the mark.
    Perhaps the single most stunning example of the lengths to which 
China will go to create an information prison is the ``Great 
Firewall,'' a massive government censorship apparatus that has been 
estimated to cost billions of dollars annually and to employ some two 
million people to police the Internet use of its citizens (Foreign 
Policy Magazine, July 2017). For this reason, many of us have long 
believed that firewall circumvention technologies must be a key 
component of any effective Internet freedom strategy. Since 2011 the 
Lantos Foundation, as part of a broad Internet freedom coalition, has 
urged Congress to direct the State Department through DRL and the BBG 
to provide robust funding to field-tested, scalable circumvention 
technologies. Recognizing that these technologies have the potential to 
provide safe and uncensored access to the Internet for literally 
hundreds of millions of people in China and in other closed societies 
around the world, Congress has responded. In every recent appropriation 
bill, Congress has included language directing that not less than $50 
million be spent to fund Internet freedom programs including 
specifically, firewall circumvention technology. This simply has not 
happened. Call it willful ignorance, call it bureaucratic intransigence 
and obfuscation, call it what you will, but in my view, both the State 
Department and the BBG have failed to faithfully implement the clearly 
expressed intent of Congress, that significant resources be dedicated 
to these large-scale firewall circumvention technologies that China 
most fears. They have funded freedom festivals and trainings and small-
scale technologies that are more directed to driving traffic to their 
own platforms (in the case of the BBG) than giving free, unfettered 
access to the vast world of the Internet for the hundreds of millions 
of people trapped behind the digital curtain. They fund privacy and 
security apps that are very important for safety while on the Internet, 
but they forget that many cannot even access the Internet. Meanwhile, 
some of the most effective, proven technologies, the ones China fears 
the most, technologies that provide unfettered access to all, have 
received only modest funding and have had curious barriers placed in 
their paths, making it difficult, if not impossible to qualify for the 
different grant proposals.
    The cost to U.S. interests of these failures at BBG and DRL were on 
vivid display during January of this year when protests broke out in 
Iran. Hundreds of thousands of Iranians took to the streets to protest 
economic hardship and the oppressive rule of the theocratic dictators. 
Among other repressive responses to this popular uprising, the Iranian 
government acted to block access to the Internet. Sadly, because the 
BBG had earlier cut off all funding to some of the most effective 
circumvention technologies, our ability to help provide access to the 
outside world for those brave Iranians was greatly limited. Only a 
single U.S. government-funded large-scale circumvention technology was 
available at this moment of crisis. I consider this an inexcusable 
dereliction of duty.
    I confess--I am baffled by the failure of both the State Department 
and the BBG to faithfully execute the directives that Congress has 
given them. When I have met with representatives at both agencies, they 
reassured me of their deep commitment to the goal of broadening access 
to Internet freedom and of the intensity of their efforts to do so. The 
rhetoric is pleasant enough, but their words are not matched by their 
deeds. When our coalition has attempted to drill down and get real 
facts about where they are directing their resources and why they are 
not funding proven technologies, we are most often met with 
obfuscation, opacity, and unfulfilled promises. During the midst of the 
Iranian protests, I met with the top leadership at the BBG and they 
personally pledged to me that within three to four weeks at the most, 
funding would be granted for technologies that could make access 
available to vastly increased numbers of users around the world. More 
than three months have passed since those meetings, and not only has no 
funding been approved, but the latest indications are that no 
additional funding will be granted for the foreseeable future. To say 
that our Internet freedom coalition is frustrated by this pattern would 
be an understatement.
    I have reluctantly come to the conclusion that the bureaucrats at 
DRL and the BBG are relying on what they think is Congress's inadequate 
attention span and limited expertise to get away with this pattern of 
ignoring Congress's clearly expressed intent when it comes to funding 
robust firewall circumvention technologies. What arrogance! I am hoping 
and praying that you will prove them wrong.
    This issue, Internet firewall circumvention, desperately needs 
champions in the Congress. We need leaders who will be vigilant and 
vigorous in demanding accountability from the agencies responsible for 
executing our government's Internet freedom policies; leaders who will 
not be beguiled by soothing words, and rather than accept heartfelt 
protestations of good intentions, will demand results. Above all, we 
need leaders who know that we must not pacify the oppressors but 
instead fortify and strengthen the brave dissidents and ordinary 
Chinese citizens who are risking everything in their pursuit of 
freedom. In other words, we need leaders who are not moral pygmies, but 
rather moral giants. I know that both of you are the kind of leaders we 
need. The Lantos Foundation, along with our Internet freedom coalition 
partners, stand ready to assist you in any way possible.
    Thank you.
                                 ______
                                 

              Prepared Statement of Hon. Christopher Smith

    China has the world's largest number of internet users as well as 
the world's most sophisticated and aggressive internet censorship and 
control regime. The Chinese government, under the leadership of Xi 
Jinping, views digital controls as necessary for its political 
stability and control of core digital technologies as necessary for its 
economic future.
    The Chinese government spends $10 billion on maintaining and 
improving their censorship apparatus. The U.S. government has an annual 
internet freedom budget of $55 million and Congress still has little 
idea how this money is spent.
    Over the past year or so, Chinese companies were ordered to close 
websites that hosted discussions on the military, history, and 
international affairs, and crack down on ``illegal'' VPNs (in response, 
Apple was forced to remove VPNs from the China app store). New 
regulations were announced restricting anonymity online and the Chinese 
government rolled out impressive new censorship technologies, censoring 
photos in one-to-one WeChat discussions and disrupting WhatsApp. 
Beijing has also deployed facial and voice recognition, artificial 
intelligence, and other surveillance technologies throughout the 
country, but particularly targeting the Uyghur ethnic minority, where 
between 500,000 and 1 million Uyghurs have been detained arbitrarily.
    The Chinese government and Communist Party's attempts to enforce 
and export a digital authoritarianism pose a direct threat to Chinese 
rights defenders and ethnic minorities and pose a direct challenge to 
the interests of the U.S. and the international community.
    The U.S. must recognize that we are engaged in a battle of ideas 
with a revitalized authoritarianism--online, in the marketplace, and 
elsewhere--and we need to up our ``competitive game'' to meet the 
challenge.
    The Administration's National Security Strategy (NSS) says quite 
clearly that the Chinese government and Communist Party (along with 
Russia) seek to ``challenge American power, influence, and interests, 
attempting to erode American security and prosperity. They are 
determined to make economies less free and less fair, to grow their 
militaries, and to control information and data to repress their 
societies and expand their influence.''
    The NSS also states that ``China is using economic inducements and 
penalties, influence operations, and implied military threats to 
persuade other states to heed its political and security agenda. . . . 
China gathers and exploits data on an unrivaled scale and spreads 
features of its authoritarian system, including corruption and the use 
of surveillance.''
    The Chinese government and Communist Party want to shape a world 
antithetical to U.S. values and interests and to export their economic, 
political, and censorship models globally.
    In response, the U.S. and like-minded allies must stand resolutely 
for freedom of religion, fairer and freer trade, labor rights, freedom 
of navigation, the rule of law and freedom of expression--including 
online.
    A coherent and engaged internet freedom strategy must be a critical 
part of the U.S. diplomatic toolbox. This strategy should have at its 
core a commitment to protect fundamental freedoms and privacy, and 
promote the free flow of news and information.
    But it is not a matter of just having a strategy--it should be the 
right one. The Bush and Obama Administrations pursued cyber diplomacy, 
yet internet freedom has declined around the world, privacy is 
increasingly under threat, and the free flow of information has become 
more endangered.
    The right strategy must start with some humility. Cyberspace is a 
place to spread democratic ideals and a place where criminals, 
extremists, corporations, traffickers, and governments exploit 
vulnerabilities with impunity. Online communication can convey our 
highest ideals and our worst fears. It can shine a light on repression 
and be the source of hatred, manipulation, fake news, coercion, and 
conflict. It can bring people together or push us apart.
    Despite all this, I agree with the NSS's conclusion which says, 
``The Internet is an American invention, and it should reflect our 
values as it continues to transform the future for all nations and all 
generations. A strong, defensible cyber infrastructure fosters economic 
growth, protects our liberties, and advances our national security.''
    Central to a revitalized U.S. internet freedom strategy should be a 
priority to open gaping holes in China's Great Firewall. I'm just not 
confident that this is the policy of the Broadcasting Board of 
Governors or the State Department right now.
    I think there are certain goals we should prioritize in our 
internet freedom strategy regarding China:

        (1) China's netizens require easy, reliable, and free access to 
        uncensored information through anti-censorship technologies, so 
        that anybody can freely access information regardless of their 
        technical ability. Reliable solutions should work all the time, 
        regardless of intensified crackdowns or major events (Party 
        Congress, June 4th anniversary) taking place in-country.

        (2) Solutions should also present difficult choices for the 
        Chinese authorities. If the authorities want to disrupt these 
        solutions, then they must disrupt many online services which 
        they would normally be hesitant and unlikely to block.

        (3) Access to solutions should also come at no cost to Chinese 
        netizens. The Chinese authorities often block access to payment 
        providers, so even if Chinese can afford a circumvention 
        solution, they cannot get past censorship by their payment 
        provider.

        (4) Holistic anti-censorship solutions should be encouraged, 
        including not just technical circumvention but also 
        distribution of those tools (getting around Google Play being 
        blocked, and censorship in the Apple App Store) as well as 
        helping users share anti-censorship tools, as well as content, 
        through messaging apps, social networks, and QR codes.

    These are just a few starting principles. I am open to a 
conversation about these goals with experts and allies. But given the 
stakes and possible outcomes, moving quickly to fund and distribute 
anti-censorship technologies should be a priority.
    The future safety and prosperity of our grandchildren--in the U.S. 
and China alike--may very well depend on ``open, interoperable 
communications online, with minimal barriers to the global exchange of 
information, data, ideas, and services.''

                       Submissions for the Record

                              ----------                              


               Letters Submitted by Katrina Lantos Swett
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
               
               



                                 ______
                                 

                  Letter Submitted by Hon. Marco Rubio
                  
                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 

                          Witness Biographies

    Sarah Cook, Senior Research Analyst for East Asia and Director of 
the China Media Bulletin, Freedom House

    Sarah Cook is a senior research analyst for East Asia at Freedom 
House. She directs the China Media Bulletin, a monthly digest in 
English and Chinese providing news and analysis on media freedom 
developments related to China. Cook is also the author of several Asian 
country reports for Freedom House's annual publications, as well as 
three special reports about China: The Battle for China's Spirit 
(2017), The Politburo's Predicament (2015), and The Long Shadow of 
Chinese Censorship (2013). Her comments and writings have appeared on 
CNN, in the Wall Street Journal, in Foreign Policy, and before the U.S. 
Congressional-Executive Commission on China. Before joining Freedom 
House, Ms. Cook co-edited the English translation of ``A China More 
Just,'' a memoir by prominent rights attorney Gao Zhisheng, and was 
twice a delegate to the United Nations Human Rights Commission meeting 
in Geneva for an NGO working on religious freedom in China. She 
received a B.A. in International Relations from Pomona College, and as 
a Marshall Scholar, completed Master's degrees in Politics and 
International Law at the School of Oriental and African Studies in 
London.

    Clive Hamilton, Professor of Public Ethics, Charles Sturt 
University (Australia), and author, ``Silent Invasion: China's 
Influence in Australia''

    Clive Hamilton is an Australian public intellectual and author. He 
founded, and for 14 years directed, Australia's leading progressive 
think tank, the Australia Institute. He has held a number of visiting 
academic appointments, including at Yale University, the University of 
Oxford, and University College London. He is the author of a number of 
books, including ``Requiem for a Species,'' ``Earthmasters,'' and 
``Growth Fetish.'' His controversial book, ``Silent Invasion: China's 
Influence in Australia,'' was published in February 2018. His articles 
have appeared in the New York Times, The Guardian, Scientific American, 
and Nature.

    Katrina Lantos Swett, Ph.D., President, Lantos Foundation for Human 
Rights & Justice

    Katrina Lantos Swett serves as President of the Lantos Foundation 
for Human Rights & Justice, established in 2008 to continue the legacy 
of her father, the late Congressman Tom Lantos, who served as Chairman 
of the House Foreign Affairs Committee and was a co-founder of the 
Congressional Human Rights Caucus. Under her leadership, the Lantos 
Foundation has rapidly become a distinguished and respected voice on 
key human rights concerns ranging from advancing the rule of law 
globally and fighting for internet freedom in closed societies to 
combating the persistent and growing threat of anti-Semitism and 
Holocaust denial. Dr. Lantos Swett is the former Chair and Vice-Chair 
of the United States Commission on International Religious Freedom 
(USCIRF) and teaches Human Rights and American Foreign Policy at Tufts 
University. She currently serves as Co-Chair of the Board of the 
Committee for Human Rights in North Korea (HRNK) and the Budapest-based 
Tom Lantos Institute. Dr. Lantos Swett also serves on the Advisory 
Board of UN Watch, the annual Anne Frank Award and Lecture, the Warren 
B. Rudman Center for Justice, Leadership, and Public Policy, and the 
Brigham Young University Law School. Lantos Swett has a B.A. in 
political science from Yale University, a J.D. degree from the 
University of California, Hastings College of the Law, and a Ph.D. in 
history from the University of Southern Denmark.



                                 <all>
</pre></body></html>
